<html>
<title> - OUR EVOLVING UNDERSTANDING AND RESPONSE TO TRANSNATIONAL CRIMINAL THREATS</title>
<body><pre>[Senate Hearing 114-752]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-752
 
              OUR EVOLVING UNDERSTANDING AND RESPONSE TO 
                     TRANSNATIONAL CRIMINAL THREATS

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION



                               __________

                             JUNE 16, 2016

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       
       
       
       


                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         
              U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-584 PDF           WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                              
                         


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2

Brownfield, Hon. William R., Assistant Secretary of State, Bureau 
  of International Narcotics and Law Enforcement Affairs, U.S. 
  Department of State, Washington, DC............................     3
    Prepared statement...........................................     4
    Responses to Additional Questions for the Record Submitted to 
      Assistant Secretary Brownfield by Senator Corker...........    26
    Responses to Additional Questions for the Record Submitted to 
      Assistant Secretary Brownfield by Senator Shaheen..........    28
    Responses to Additional Questions for the Record Submitted to 
      Assistant Secretary Brownfield by Senator Rubio............    30




                             (iii)        

  


                     OUR EVOLVING UNDERSTANDING AND



                       RESPONSE TO TRANSNATIONAL



                            CRIMINAL THREATS

                              ----------                              


                        THURSDAY, JUNE 16, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:31 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Flake, Gardner, 
Isakson, Cardin, Menendez, and Kaine.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    This morning, we will look at how we are moving beyond the 
war on drugs to understand the broader challenges of 
transnational organized crime and what strategies can be 
effective in combating this threat. While illegal drugs and 
crime associated with them are devastating communities on both 
sides of our southern border, it is not yet clear how 
successful huge investments made over the decades have been in 
eradicating supply and production.
    The bottom line is this. Where the rule of law is weak or 
nonexistent, transnational criminal organizations will prosper 
and engage in corruption.
    In 2011, the Obama administration issued a strategy to 
combat transnational organized crime. This was an ambitious, 
aspirational strategy that sought to mark an evolution in 
thinking. Now, nearly 5 years later, we need to ask what is 
working and what is not so we can get this right moving 
forward.
    Our witness today is Ambassador Bill Brownfield, who is a 
strategic thinker with long, practical experience. We welcome 
him and look forward to his testimony and our discussion.
    With that, I will turn to our ranking member, our 
distinguished ranking member, Senator Ben Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Mr. Chairman. And thank you for 
convening this hearing on transnational crime.
    The world has changed and so has transnational organized 
crime. I think it is important for us to have an update as to 
where we are. President Obama's 2011 transnational organized 
crime strategy has been there for a while. Is it working? Do we 
need to do more?
    We need an update, and I hope today that, Secretary 
Brownfield, you will share with us how we are doing in regards 
to that strategy.
    Organized transnational crime, we have seen many of the 
results of that. We have had hearings on trafficking on human 
beings, on wildlife, on weapons, on drugs. We have seen 
transnational organized crime and its financial crimes against 
us, particularly on cyber.
    I am particularly proud of the work being done in my own 
State of Maryland on cybersecurity dealing with the effects of 
transnational crime, the work at Fort Meade where we have our 
cybersecurity command, and many private companies working in my 
State in regards to these issues.
    There is a clear nexus between government corruption and 
transnational crime that I think is pretty clear. When you take 
a look at how transnational crime spreads, you find areas in 
which there is corruption and where they can deal with their 
expansion of their own activities.
    Then, Mr. Chairman, the human cost of this, we talk about 
the impacts of dealing with transnational crime, but the impact 
of this, the trafficking of drugs into America, in my State, in 
every State in the Nation, we see record numbers of addictions. 
So it is affecting our communities directly, as well as the 
criminal elements and what they do.
    We certainly have seen that in the trafficking of migrants. 
In April, 500 people died alone in the Mediterranean on one 
capsized trafficking boat.
    So there is a human cost to this.
    Of course, this is big business. The numbers are 
astronomical. Just in the trafficking of refugees in 2015, it 
was about a $5 billion to $6 billion enterprise.
    So it is a huge amount of resources that are being taken 
out of our productive economy through organized transnational 
crime, and we need an equal response to it. And I look forward 
to hearing from our witness.
    The Chairman. Thank you for your comments.
    Today, our witness is Ambassador William Brownfield, the 
Assistant Secretary for the Bureau of International Narcotics 
and Law Enforcement Affairs. We had a long meeting last week to 
go through many aspects of this problem, and I thank him for 
being here today and sharing his knowledge, but also his 
thoughts about how better to attack this.
    If you could, if you could keep your comments to about 5 
minutes, that would be great. We look forward to questions.
    Without objection, your written testimony will be entered 
into the record.
    With that, have at it.

    STATEMENT OF THE HON. WILLIAM R. BROWNFIELD, ASSISTANT 
 SECRETARY OF STATE, BUREAU OF INTERNATIONAL NARCOTICS AND LAW 
ENFORCEMENT AFFAIRS, U.S. DEPARTMENT OF STATE, WASHINGTON, D.C.

    Ambassador Brownfield. Thank you, Mr. Chairman, Ranking 
Member Cardin. Thanks for the opportunity to appear today to 
discuss our evolving understanding in response to transnational 
criminal threats.
    Gentlemen, if I were asked to describe the current 
strategic threats from transnational crime, I would mention 
two.
    First is our priority from the last century, drugs. We must 
today manage a strategic transition from cocaine to heroin. We 
have made great progress on cocaine. U.S. consumption is down 
more than 50 percent, but heroin abuse is exploding. Our 
international challenge is to work the solution with the 
Government of Mexico, the source of most heroin in the United 
States, and I can report that we are working well together, 
meshing our domestic heroin abuse reduction plan with Mexico's 
new national heroin plan.
    But we must not ignore cocaine. In 2 years, cocaine 
production in Colombia has doubled, and the U.S. is the 
traditional market for Colombian cocaine.
    Colombia is understandably focused on its peace process to 
conclude a 50-year armed conflict. Our challenge is to support 
that process while at the same time pursue a serious drug 
strategy for Colombia and Central American transit nations.
    And we need to address challenges beyond our hemisphere. 
Afghanistan produces more than 80 percent of the world's 
heroin. Africa is a massive transit point for trafficking 
networks moving north-south and east-west. And the Chinese 
pharmaceutical industry produces much of the world's dangerous 
new psychoactive substances, and some old ones like fentanyl.
    The second and the greater strategic challenge for the 21st 
century is that vast new field of organized criminal activity 
that is neither drugs nor terrorism. We call it transnational 
organized crime. It includes human smuggling and trafficking in 
persons and wildlife, arms trafficking, illegal mining and 
logging, cybercrime, intellectual property theft.
    While each crime is distinct, they all share certain 
enablers. They require corruption to run their trafficking 
networks and money laundering to convert illegal revenue into 
legitimized property. They all prey on week governing 
institutions and benefit from poverty, poor education, and lack 
of jobs.
    In the increasingly globalized 21st century, transnational 
organized crime may be the greatest law enforcement threat to 
confront the United States.
    We have learned lessons since first attacking the drug 
crises of the 20th century, and we have changed our tactics 
accordingly. One lesson is that many of the techniques and 
technologies developed over 40 years to control illicit drugs 
can also be applied to TOC.
    But police operations, interdiction, lab takedowns, 
arrests, while important cannot alone solve transnational 
organized crime. Long-term progress means stronger law 
enforcement and rule of law institutions, whether through 
training, education, equipment, or technology.
    And our partner institutions are not just the police. They 
are also investigators, prosecutors, public defenders, judges, 
and corrections officials. And we must construct the global 
architecture, the treaties and conventions, the U.N. and other 
international organizations, the cooperation and coordination 
mechanisms that permit governments and law enforcement to work 
together to address transnational organized crime.
    Mr. Chairman, I have been in this business more than 37 
years. I take the long view to solving our national security 
challenges. When I joined the Foreign Service in 1979, the most 
sophisticated tools available to law enforcement working an 
international case were the telephone and a Rolodex file. We 
have come a long way since then, but we have a long way to go 
still.
    Thank you, and I thank the members of the committee, and I 
look forward to your questions and your comments.
    [The Ambassador Brownfield's prepared statement follows:]


         Prepared Statement of Ambassador William R. Brownfield

    Chairman Corker, Senator Cardin, distinguished Members of the 
Committee; thank you for the opportunity to appear before you to 
discuss the Department of State's work to prevent transnational 
organized crime from harming U.S. citizens and threatening our national 
interests.
    Since 2011, it has been my privilege to serve as Assistant 
Secretary of State for the Bureau of International Narcotics and Law 
Enforcement Affairs (INL) which leads the Department's efforts to meet 
this considerable challenge. INL is responsible for coordinating U.S. 
government efforts abroad to increase international cooperation against 
all forms of transnational crime. To support this mission, INL is 
entrusted with developing and managing U.S. foreign assistance programs 
in approximately 90 countries to strengthen the criminal justice 
capacity of like-minded foreign governments. INL also coordinates and 
funds the efforts of U.S. law enforcement agencies that provide 
training and other assistance to our international partners.
    Transnational organized crime encompasses a wide variety of 
criminal threats, ranging from illegal trafficking in drugs, people and 
wildlife to cybercrime and money laundering. Any serious ongoing 
criminal activity that crosses international borders and involves three 
or more people meets the legal definition of transnational organized 
crime, and these activities threaten the interests of the United States 
on three broad, interrelated fronts.
    First, transnational organized crime's impact is felt directly on 
the streets of virtually every community in America. Drugs, counterfeit 
merchandise, and other contraband are illegally smuggled into the 
United States every year, undermining our border security and 
inflicting harm on society and individuals. Heroin, fentanyl, and 
illicit opioids originating from abroad are perpetuating the national 
opioid epidemic. Cyber-enabled fraud and other forms of crime victimize 
American citizens of billions of dollars annually, and transnational 
criminal gangs commit crimes in collaboration with their peers located 
beyond our borders.
    Second, American businesses and financial institutions are more 
affected than ever before by the impact of transnational organized 
crime. When international crime infiltrates legitimate commercial 
sectors, our companies and workers are deprived of a level playing 
field to compete globally. Markets for U.S. products are diminished, 
prices are distorted, and consumers are exposed to additional risks 
from unregulated (and in many cases unsafe) products. Counterfeiting 
and piracy cost the U.S. economy billions of dollars annually and 
expose consumers to dangerous and defective products. Transnational 
crime also corrupts international financial institutions that supply 
the credit and banking services that our global economy depends on.
    Third, international criminals engage in a variety of activities 
that pose a grave threat to our national security and the stability of 
the global community. Corruption and the enormous flow of illicit 
profits generated by criminal activity are serious threats to the 
stability of democratic institutions, the rule of law, and sustainable 
economies around the world. Once imbedded within the political 
institutions of a society, transnational criminal networks weaken the 
bonds of trust between citizens and their state. Governments corrupted 
at senior levels by organized crime cannot be trusted to act as 
reliable partners of the United States, or as responsible stakeholders 
in the international community. The convergence of crime, corruption, 
and weak governments can also devolve into failed states and ungoverned 
spaces that provide a foothold for terrorism, insurgencies and 
unchecked human rights abuses.
    The Department of State has treated transnational organized crime 
as a foreign policy priority for approximately the past forty years. We 
started with illegal drugs. In the late 1970s, INL was created to 
develop and manage international drug control programs. Our focus was 
on eradicating drug crops in Latin American source countries. We had 
some success with eradication, but in and of itself, it wasn't 
sufficient; drug cultivation could be shifted to new areas where 
governments had less authority. When it became apparent that 
eradication wasn't enough, in the 1980s, we shifted our approach to 
interdiction. And again, we had some successes, particularly in 
reducing the flow of cocaine through the Caribbean. But traffickers can 
adapt and evolve quickly, budgets to support interdiction are limited, 
and the flow of drugs shifted over time.
    These early years of experience taught us some valuable lessons 
with wider applicability to all other forms of transnational organized 
crime. We learned that we could displace criminal activity in certain 
regions for a time and that we could displace the leadership of 
particular criminal organizations and by doing so, bring about short-
term disruption to drug flows. But these were short-term palliatives, 
not sustainable long-term solutions. Over the past two decades, with 
support from successive administrations and bipartisan backing from 
Congress, INL has recalibrated its work to focus on two mutually 
supportive strategic objectives; helping partner governments build, 
reform, and sustain judicial institutions that enhance the capacity of 
their criminal justice systems; and developing the global architecture 
necessary for cross-border law enforcement cooperation and preventing 
corruption.
    Our shift to institution building became more pronounced as the 
threat of transnational organized crime evolved during the 1990s, 
beyond drugs. As globalization accelerated with the end of the Cold 
War, so too did the spread of transnational organized crime, along with 
its attendant corruption. U.S. policy leaders recognized that the same 
institutional shortcomings of vulnerable states allowed all manner of 
criminal threats to expand across international borders. To deny 
international safe havens to these criminal networks, our assistance 
programs had to expand to focus on strengthening these institutions and 
provide host governments with the ability to enforce their laws.
    Developing strong and effective criminal justice institutions 
requires a long-term commitment. Successful law enforcement operations 
are satisfying, but strengthening institutions provides value for a 
generation. All links in the criminal justice continuum--police, 
courts, and corrections--must be capable of effectively delivering 
justice, securing public trust and safety, and enabling international 
cooperation.
    This is not an easy task; if all links in this chain are not 
addressed, sophisticated criminal organizations will exploit the 
weakest link. More than half of INL's budget today directly promotes 
sustainable institutions and criminal justice reform. Our goal is to 
help partner nations gain the capabilities they need to effectively 
sustain the administration of justice and the enforcement of their 
laws. U.S. foreign assistance is always a development bridge, not a 
permanent status quo. Our capacity building assistance is not intended 
to create dependencies nor to replace host country responsibilities to 
invest in developing and sustaining their own institutions.
    This relates to another important lesson that INL has taken to 
heart: host governments and their citizens must own the process of 
reforming their institutions. It can't be driven by the desire of the 
United States or other donors. INL's support for capacity-building is 
directed by the requests of our international partners. No other 
approach works; host governments determine what assistance they will 
accept, and we do the best we can within available resources to work 
with them.
    Assisting international partners across the full range of criminal 
justice sectors requires specialized expertise. INL has subsequently 
expanded its collaboration with a wider range of implementation 
partners. In addition to our longstanding partnerships with the 
Departments of Justice and Homeland Security, INL has expanded its 
range of Federal implementers to include the Administrative Office of 
the U.S. Courts, the U.S. Marshals Service, the Federal Bureau of 
Prisons, and the Law Library of Congress. INL has also developed over 
110 partnerships in 25 states and the District of Columbia with police 
departments, district attorneys' offices, public defender services, 
departments of corrections, and maritime ports. Our state- and local-
level partners possess unique technical, linguistic, and cross-cultural 
expertise and represent the diversity of America's law-enforcement and 
justice sector communities. These partnerships are a win-win: our 
assistance programs benefit from the knowledge and expertise of active 
police officers, corrections officials, and legal professionals, and 
state and local partners expand their ties with countries of interest 
to their communities and gain new professional development 
opportunities.
    This approach to long-term institution building on a global scale 
requires patience and a sustained political will by both host 
governments and our own. In many countries where INL operates, police, 
judicial, and correction institutions have been historically 
underfunded, with poorly-paid and trained staff operating under 
antiquated laws and codes. The institutional improvements that our 
programs support require generational change. Most progress takes place 
in incremental steps that seldom attract news headlines; more criminal 
investigations resulting in trials; more trials brought to successful 
verdicts; and more humane and secure prison facilities.
    In Central America, INL's support for institutional reforms to law 
enforcement coupled with an emphasis on transparent, accountable 
policing in high crime locations is resulting in decreased rates of 
violent crime and improved relationships with communities. In Ukraine, 
we helped plan, equip, train, and roll out an entirely new police force 
in just ten months, covering 34 cities in every region in the country 
and credited in polls as the third most trusted institution in the 
country after the army and the church. Globally, INL-funded programs 
trained over 1,000 officials to combat wildlife trafficking in 2015, 
benefitting nearly 30 countries.
    Colombia has served as a showcase for where our approach can 
succeed given sufficient resources, patience, and host nation political 
commitment. Fifteen years ago, before the advent of U.S. assistance 
under Plan Colombia, large areas of the country were beyond the writ of 
the state, controlled by terrorist and criminal organizations. Today, 
while many challenges remain, the Colombian state is not only able to 
provide its citizens greater security and access to formal institutions 
of justice, but the country now exports law enforcement and justice 
sector assistance to its international partners.
    In addition to capacity building, INL has achieved substantial 
progress in developing frameworks for cross-border cooperation. 
Beginning in the late 1990s, thanks in large part to U.S. leadership, 
and working largely from U.S. models, the global community has 
developed a series of groundbreaking treaties that promote 
international law enforcement cooperation and reduce the advantage that 
criminals gain from crossing borders. The UN Convention against 
Transnational Organized Crime (UNTOC), which entered into force in 
2003, is the first legally binding instrument that commits countries to 
common criminalization of a wide range of serious organized crimes and 
to cooperating with one another on criminal justice enforcement. It is 
supplemented by three Protocols to combat trafficking in persons, 
migrant smuggling and illicit trafficking in and manufacturing of 
firearms. The United States has used the UNTOC as the basis for mutual 
legal assistance and extradition cooperation with other countries on 
over 470 occasions, making the treaty a valuable tool for our criminal 
justice practitioners.
    We've achieved similar progress in creating global standards 
against corruption, the great enabler and worst consequence of 
organized crime. The UN Convention against Corruption (UNCAC) entered 
into force in 2005 and provides a complementary framework to address 
both the supply and demand for corrupt international practices. The 
UNCAC lays out requirements for preventive anti-corruption measures, 
criminalization of bribery and other corrupt practices. These 
requirements are only as good as governments' ability to enforce them, 
so INL also works with international law enforcement networks such as 
INTERPOL to target perpetrators of corruption and their ill-gotten 
gains. INL also leads efforts within the G-20 to prevent corrupt 
officials from traveling internationally and enjoying the benefits of 
their crimes.
    These UN benchmarks have been complemented by treaties developed in 
other multilateral organizations that support global efforts to prevent 
transnational crime. The Council of Europe's Convention on Cybercrime, 
for example, provides a model for countries to develop domestic 
legislation and provides a platform for increased cooperation in 
cybercrime investigations. The Financial Action Task Force (FATF) 
serves as the global focal point for concrete cooperation to counter 
money laundering, which greases the wheels of international criminal 
activity. Taken collectively, this legal framework provides the 
foundation necessary for systemic, standardized law enforcement and 
judicial cooperation between governments. INL is committed to using all 
levers of diplomacy to encourage our international partners to take 
advantage of this framework, for the protection of their own citizens 
and interests as well as ours.
    In conclusion, we believe we are achieving progress and pursuing 
the correct strategy by working with like-minded governments and other 
partners to promote sustainable criminal justice institutions and 
durable civilian security. We have made great strides in developing an 
international legal foundation and normative framework for common 
approaches to combatting transnational organized crime. But I am not 
suggesting the problem is solved or that we will ever be able to 
declare victory. Criminal threats emanating from abroad are always 
going to exist, and we will need to remain constantly vigilant as they 
metastasize and evolve. Our goal is to continue to reduce the ability 
of transnational organized crime to operate with impunity, and 
ultimately reduce it to a manageable threat that can be contained by 
our partners domestically.


    The Chairman. Thank you very much for your testimony and 
for the time you have spent on this for 37 years, and for the 
meetings that we have had in the office.
    I want to make sure people heard fully what you had to say. 
Ninety percent of the heroin that comes into the United States 
is not just coming from Mexico, it is produced in Mexico. Is 
that correct?
    Ambassador Brownfield. That is a good rough estimate, Mr. 
Chairman.
    The Chairman. So it is not a situation of having a southern 
border where things would naturally migrate through. It is 
actually being produced there.
    I think the point you wanted to make sure that you got out 
is that you are working very closely with the Mexican 
Government to try to deal with this issue and feel like you 
have a good partner in that regard. Is that correct?
    Ambassador Brownfield. That is also correct, Mr. Chairman. 
I think very highly of the Attorney General of Mexico who has 
been placed in charge of the Mexican Government's efforts.
    The Chairman. So what is it that is specifically causing 90 
percent of the heroin that Americans are consuming to be 
produced in Mexico?
    Ambassador Brownfield. Mr. Chairman, that is a very good 
question. I am going to offer you two, three, maybe even four 
elements of an answer.
    One part of the answer is that the same Mexican trafficking 
organizations or cartels that for the last 20 years or so have 
been moving the product from South America, mostly cocaine, 
through Central America and into the United States discovered 
as the cocaine demand reduced in the United States that they 
could replace much of that through heroin and made a systematic 
effort to build that market. So it was Mexican organizations 
building the market.
    Second, they discovered that having a vertically integrated 
system, which is to say controlling the entire process from 
cultivation, through laboratories that convert opium poppy into 
heroin, through the transport and logistics networks, and 
eventually then the revenue, the money laundering networks, 
worked to their advantage.
    Third, you have geography, which is to say Mexico is a lot 
closer to the United States than is Afghanistan.
    And fourth, in a sense, Mexico became the victim of 
Colombia's successes. Colombia used to produce about half of 
the heroin consumed in the United States. But thanks to some 
very serious and successful efforts by the Colombian 
Government, Colombian heroin has dramatically reduced in the 
U.S. market, and Mexican heroin has replaced it.
    The Chairman. So what has happened in Mexico is not unlike 
any international business enterprise, vertical integration, 
proximity to customer, has caused the Mexican production to 
dramatically increase just like any other legitimate business 
might act. This is obviously illegitimate. They are adopting 
the same principles. Is that correct?
    Ambassador Brownfield. That is exactly right, Mr. Chairman. 
As I like to say often, drug trafficking organizations are 
criminal and are vicious, but they are not stupid. They are 
very good businessmen.
    The Chairman. So my staff had some comments, my great staff 
had some comments about some of the positive things that were 
happening in Colombia. However, I declined to say those in my 
opening comments because of what you just said, and that is 
that a 50 percent increase in cocaine production is occurring 
right now in Colombia.
    What is driving that? After all the years of effort, after 
positive effort by many administrations, what is driving that 
50 percent increase?
    Ambassador Brownfield. Actually, Mr. Chairman, I might even 
nudge your figure up from 50 percent to closer to 100 percent 
over the last 2 going on 3 years.
    I think it is driven by several factors. One, to be blunt 
and honest, is the focus and attention of the Colombian 
Government on their peace process and, to some extent, a 
willingness or a desire not to take steps that would complicate 
that peace process. The FARC guerrilla movement is today, as it 
has been for more than 30 years, one of the world's leading 
drug trafficking organizations.
    Second, the Government of Colombia no longer has the same 
eradication program that they had for the last 20 years or so. 
They have stopped all aerial eradication, and they have not 
replaced it with ground-based manual eradication.
    Now this is partly a decision of them telling us to stop 
aerial eradication. But it is also partly a function of the 
Colombian coca growers having realized and discovered that 
certain zones in Colombia would not be sprayed, zones right 
near national frontiers and borders, or zones in national 
parks, or zones in indigenous reserves or in FARC-controlled 
areas.
    The net effect of that is this explosion of coca 
cultivation.
    The Chairman. Let me just ask you--this is not what we want 
to hear. I know we had the President up here recently, and all 
of us were glad to see him and certainly want to continue the 
partnership we have had. But is this in some ways an 
accommodation to the FARC in order to end up in a more peaceful 
situation that you see occurring?
    Ambassador Brownfield. Mr. Chairman, I think it is part of 
that, but that is too simple of an answer, and I want to give 
complete credit to the Government of Colombia, who I admire 
enormously, who I think have made extraordinary effort at great 
cost and with great courage in terms of what they are doing.
    But I do think we have to acknowledge that as the peace 
process and its negotiations have developed over the last 4 
years, one of the elements of Colombian Government policy that 
has not been maintained at its previous level is 
counternarcotics and eradication.
    The Chairman. So I want to move on to the next person, out 
of respect for everybody here on the committee. I do in the 
next round want to focus on the tremendous increase in 
production that is occurring right now in Afghanistan and the 
highly lucrative production of fentanyl that is occurring in 
China, which is actually so much easier to do, so much cheaper 
to make, and yet so much more lucrative. That is probably our 
next challenge as a Nation.
    With that, Senator Cardin.
    Senator Cardin. Mr. Chairman, I want to follow up on your 
point.
    Ambassador Brownfield, we very much appreciate your 
service. We know the work that you did in Colombia, and we 
appreciate that very much. We now need to see how we can deal 
with a more holistic approach on drugs coming into America.
    I just want to concentrate 1 minute on heroin because I 
have been throughout my State, and I have seen the impact of 
heroin addictions in Maryland. It is in every part of my State. 
There is no part of Maryland that has been immune, no community 
has been spared. My understanding is that this is true 
throughout America. The heroin addiction issues are incredibly 
impacting all of our communities.
    So I am pleased to hear your report that, from the 
governmental sector, you are confident that our relationship 
with Mexico is productive, and that we are working on that 
issue. But you have also acknowledged a 100 percent increase in 
the heroin production in Mexico. So clearly, we have to be more 
effective in our policies in Mexico to stop the production.
    Now, there are a lot of other issues involved in the heroin 
use here in the United States. We have the opioid abuses, et 
cetera. So we need a multiple approach. But from your 
experiences in Colombia, I would hope that we would have more 
aggressive expectations on cutting off the source of production 
in Mexico.
    Ambassador Brownfield. That is a very fair hope on your 
part, Senator, and I want to feed into that hope. I am 
optimistic. But by the same token, I have been in this business 
long enough to know that, to have an impact, you have to think 
in terms of years, not in terms of months. I would use Colombia 
as an example.
    Plan Colombia launched in 2000. Until the year 2007, no 
one, no one in this institution of the United States Congress 
or the executive branch, would have been prepared to say we 
have made serious inroads and impact on cocaine production in 
Colombia.
    By 2007, 2008, 7 to 8 years after the start of the most 
aggressive program we have ever pursued in the Western 
Hemisphere, we began to see that impact. I lay that out as a 
concern as we deal with Mexico.
    As we are working with Mexico, we have to remember that we 
have our own part to play in this, and it is a serious part. 
The Office of the National Drug Control Policy director has 
developed the heroin abuse reduction plan. And the objective of 
that plan is to reduce the demand for the product in the United 
States.
    The Mexican Government, in my judgment, has been very good 
about law enforcement efforts focused on interdiction and 
attacking and taking down laboratories. The challenge that we 
have right now, Senator, is going after the tens if not 
hundreds of thousands of acres in Mexico that are currently 
under cultivation for opium poppy.
    That is the challenge. That is what I am trying to work 
right now with the government.
    Senator Cardin. Obviously, that is extremely important, and 
we want to help any way we can.
    Could you just share with us a better understanding of the 
criminal elements that are bringing the heroin into the United 
States, its relationship to traffickers in regards to humans? 
Give us an understanding. Are we talking about Mexican cartel-
type operations? Are we talking about American connections? Are 
we talking about other parts of our hemisphere, outside of our 
hemisphere, that are involved in these transnational criminal 
syndicates that are effectively bringing the drugs and perhaps 
people into the United States?
    Ambassador Brownfield. Senator Cardin, I will offer you my 
views. Obviously, U.S. law enforcement has a right to correct, 
adjust, fine tune, or modify anything you are about to hear 
from me.
    First, it is my opinion that the Mexican drug trafficking 
organizations have developed in the last 10 to 15 years in a 
way that basically supplanted previously the Colombian drug 
trafficking organizations, which dominated the movement of 
product, particularly cocaine, from South America to the United 
States.
    They are overwhelmingly, within Mexico, Mexican 
organizations that are comprised of Mexican citizens.
    Do they also take advantage of other forms of trafficking 
in order to make money? Yes, they most assuredly do. Whether 
that is trafficking in persons or firearms, whether it is 
trafficking in contraband or other forms of criminal activity, 
they engage in it.
    Their usual approach is to manage the process themselves 
from within Mexico and get the product across the United States 
border. That is done by the organizations themselves and their 
personnel.
    Once they have delivered to the ultimate destination in the 
United States, by which I mean the city, at that point, they 
have a local partner. That partner may or may not be Mexican. 
It may be an all-American gang. It may be a mix.
    But that is the point they shift from transportation and 
wholesale into retail, where the product then moves from the 
criminal organization, the Mexican cartel, to some other 
Americanized version.
    Senator Cardin. Just so I understand, you are confident 
that the leadership in Mexico fully understands this and is 
working with us in order to root out these criminal elements 
within Mexico?
    Ambassador Brownfield. I am, Senator, although I do say 
that this has taken a number of years, and the reason is that 
it is a change from the perspective of Mexico to how they 
address drug-related issues.
    Until the heroin crisis--and you used that word correctly; 
we have a heroin crisis in the United States--until that 
crisis, the Mexican position was roughly that by the accident 
of geography, they were located in between the producer states 
further down to the south in South America--Colombia, Peru, 
Bolivia--and the consumer states located to their north in the 
United States or in Canada or in Western Europe.
    As we have shifted from cocaine to heroin, they have had to 
confront the reality that the entire problem is centered there.
    It has taken time. I believe we are moving in the right 
direction. I continue to offer you optimism, but with a careful 
dose of please do not hold me to a ``solve this problem by 
Friday'' standard.
    Senator Cardin. I will follow up in the second round. 
Thanks.
    The Chairman. Senator Isakson?
    Senator Isakson. Thank you, Mr. Chairman.
    I represent the State of Georgia, the capital of which is 
Atlanta, which is ground zero for Mexican drugs coming into the 
United States. I mean, that is where it comes to get 
distributed either through Hartsfield International Airport, 
the interstate highway system, the Port of Savannah, whatever.
    My impression is that operational control of the border 
between the United States and Mexico, and the land therein, is 
pretty much controlled by the Mexican drug cartels. Am I right?
    Ambassador Brownfield. You are talking to a native Texan, 
Senator. I would not go that far. I would say, however, on the 
south side of the border, there is a tremendous amount of 
penetration and influence, including several of the major 
Mexican border cities.
    Senator Isakson. And the increase in the heroin trafficking 
is because of increased demand for heroin in the United States 
of America. Is that not right?
    Ambassador Brownfield. It certainly is right that you would 
not have nearly the amount of heroin crossing the border if 
there were not demand, although I would suggest to you that 
much of this demand was manufactured and artificial, which is 
to say the original demand was caused by perhaps 
overprescribing pain opioids as pain medication, which 
developed some demand. And then the cartels substituted say $40 
a hit, which you had to do by using a prescription drug, to 
give the same buzz for 10 bucks with straight heroin. They then 
created, if you will, a market for heroin.
    Senator Isakson. Do you think the human trafficking and the 
drug trafficking coming into the United States out of Mexico 
are tied to each other?
    Ambassador Brownfield. I do in very many instances, yes.
    Senator Isakson. In fact, the human traffickers are used to 
get the drugs into the United States over the border, are they 
not?
    Ambassador Brownfield. I do believe that as well.
    Senator Isakson. How much cooperation are we getting from 
the Mexican Government to try to stop that?
    Ambassador Brownfield. I believe we get good cooperation on 
a case-by-case basis and in specific locations.
    I believe, across-the-board, the corporation is good with 
Mexican federal authorities along the border. I think the 
cartels are so skilled and so well-informed that they can 
identify and spot the weak points, so that, in a sense, even if 
we had 99.9 percent of a tightly controlled border, they would 
find that one-tenth of 1 percent.
    That is the problem. That is the challenge that we are 
dealing with.
    Senator Isakson. I get the impression that the enforcement, 
the cooperation--I am not talking just about Mexico here. I am 
talking about in the macro sense. The cooperation that foreign 
governments give us on the human trafficking issue is less than 
helpful. Is that correct?
    Ambassador Brownfield. It depends upon the country, but I 
would not disagree that in a lot of cases there is a reluctance 
to acknowledge that they have a trafficking in persons problem.
    Senator Isakson. Our chairman and ranking member have done 
a great job of really focusing on the human trafficking issue, 
which is a real tragedy.
    I go back to my State of Georgia and Atlanta, in 
particular, and we are ground zero for where a lot of those 
people are brought, thinking they are getting into America, but 
end up becoming sex slaves, drug traffickers, or worse, or 
domestic servants, or whatever they might be.
    But I just do not get the impression that internationally 
or within this hemisphere that we get the cooperation we should 
from other governments to really stop the human trafficking. It 
seems to be growing rather than diminishing.
    Ambassador Brownfield. I do not disagree with that, 
Senator. You are going to accuse me of pandering, but I am 
going to make one additional statement. I have signed a 
memorandum of understanding, and I signed it the first time 
about 2 years ago, with a large city police department. It is 
called the Atlanta Police Department. They have a division that 
does hate crimes as well as crimes involving trafficking in 
persons, which are usually sexual- or gender-based crimes. And 
they are the best trainers that we have anywhere in the world 
for many of the reasons that you yourself have just laid out.
    Part of the challenge, and, therefore, part of the 
solution, is how we can project the way we deal with these 
problems here in the United States in a real-world way with 
police that are overseas in countries that have the same 
problem. That is part of our challenge.
    Senator Isakson. Do not ever apologize to the Senate for 
pandering. We do it all the time. [Laughter.]
    Senator Isakson. But on the subject, and you and I, I do 
not think, have ever met, so I want to thank you for teeing up 
what was going to be my last comment about the Atlanta PD and 
what they are doing in terms of the gang issue, which in terms 
of human trafficking and drugs are the enablers in the United 
States for a lot of the cartels in Latin America and in Mexico.
    It is the flow of information of these gangs that can be 
the best mechanism we can use to stop a lot of trafficking and 
drug distribution. That is my impression. Do you agree with 
that?
    Ambassador Brownfield. I do agree with it. In fact, I try 
to say it as often as I can. We have signed 110 memoranda of 
understanding with State and local law enforcement institutions 
throughout the country. And my message is this is not just in 
our interests--we get excellent trainers to do programs 
overseas--it is in their interests, because as they engage 
overseas in training missions, they are developing the contacts 
with foreign police. They are developing the intelligence 
sources that can in turn be played back to help them do their 
jobs on the streets of America's cities and communities, 
whether it is gangs or trafficking organizations or others that 
are involved in international, transnational organized crime.
    Senator Isakson. On that point, Mr. Chairman, law 
enforcement, particularly in the southeastern United States, 
has developed such a database that the tracking of these gang 
members and the flow of these gang members is becoming very 
traceable in a very instantaneous type of approach through a 
database that has been assembled. It is really helping us to 
begin to get our arms around this.
    So I appreciate you bringing the APD up. Thank you.
    Ambassador Brownfield. Thank you, Senator.
    Senator Isakson. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for your service.
    In 2011, the administration released a strategy on 
combating transnational organized crime with a stated end goal 
of reducing from a national security threat to a manageable 
public safety problem, the effects of organized transnational 
crime.
    The strategy outlines five key objectives, identifies 
dozens of priority actions for implementation. The five 
objectives of the strategy are protecting U.S. citizens and 
interests, supporting partner nations to address corruption 
related to transnational crime, protecting the U.S. financial 
system from exploitation by organized crime, targeting 
transnational criminal networks that pose a threat to U.S. 
national security, and building international cooperation 
through multilateral fora and public-private partnerships.
    In your testimony, however, you noted that INL, and I am 
quoting, ``has recalibrated its work'' and focused on two 
mutually supportive strategic objectives, helping partner 
governments build, reform, and sustain judicial institutions 
that enhance the capacity of their criminal justice systems, 
and developing the global architecture necessary for cross-
border law enforcement cooperation and preventing corruption.
    So does that represent a strategic shift by the 
administration? I know that you noted that you are not ready to 
declare victory, but did circumstances portend defeat? I would 
like to understand what the recalibration means for U.S. 
policy. Has our end goal changed? Have the ways to achieve it 
changed?
    Ambassador Brownfield. Senator, here is the way I would 
answer that perfectly legitimate question, I would say----
    Senator Menendez. I only ask perfectly legitimate 
questions. [Laughter.]
    Senator Menendez. At least I think so.
    Ambassador Brownfield. I would say that INL is part of a 
larger group of institutions. We obviously have the Federal law 
enforcement organizations. We have the Department of Justice, 
the Department of Homeland Security. We have those that are 
involved in the counterterrorism efforts as well.
    We, therefore, have a piece of the national strategy on 
transnational organized crime. This was about the time, you may 
vaguely recall, since you chaired the hearing that foolishly 
recommended eventually my confirmation in this position, that 
this was about the time I came into this position. And my 
decision at that time was, as INL, let us not try to do all of 
this strategy. Let us pick those elements where we have the 
greatest ability to influence in a positive way.
    And we picked institution-building, because, in a sense, it 
is what we do across-the-board around the world and developing 
the global architecture, which is a code for the conventions, 
the international agreements, the international organizations 
and mechanisms that allow governments to coordinate and 
cooperate around the world.
    We are actually working the other issues as well, but my 
guidance to my people 5 years ago was let's pick those areas 
where we can have the most impact, and where other parts of the 
United States Government would not naturally be doing as much.
    Senator Menendez. I ask the question, and I want to follow 
up with a different part of your testimony, because, certainly, 
protecting the U.S. financial system from exploitation, and 
certainly targeting transnational criminal networks that pose a 
threat to U.S. national security I would think would be 
essential elements of any such plan that we would want to 
pursue.
    So the two stated goals that you described that you have 
narrowed it down to may tangentially help that, but I am not 
sure it directly does.
    So let me ask you this. You say that INL support for 
capacity-building is now, my emphasis, directed by the requests 
of our international partners. Host governments and their 
citizens must own the process of reforming their institutions. 
It cannot be driven by the desire of the United States or other 
donors.
    Again, it may be more than semantics. But where you say 
this cannot be driven by the desire of the United States, I 
absolutely think it should be driven by pursuing our own 
national security interests and projecting our own values. No 
one else is going to do that for us.
    So I ask these questions because many of us here are trying 
to give this and whatever future administration the tools it 
needs to accomplish the goals the administration says it has 
set, and I hope the administration has not reset INL's goals to 
only work within the confines of relationships that are not 
adversarial.
    So what happens in many countries--certainly, there are 
several, the 90 or so that fall within INL's orbit--where the 
government or others in control do not want our help because 
that would interfere with their profit-taking or other personal 
interests.
    Are we seeing ourselves, then, as barred from working with 
other institutions and NGOs and others in those countries that 
could move toward creating the type of systems that we would 
want to see?
    Ambassador Brownfield. Senator, I think, in a sense, you 
and I are reaching the same conclusion, but we are saying it in 
different ways.
    Of course, we want to cooperate with those governments and 
in those countries that represent, if you will, the greatest 
transnational organized crime threat to the United States of 
America. My point in my statement was, if we do not have buy-in 
or genuine commitment by the host government, we probably are 
not going to succeed. That is one of those lessons I have 
learned over the last 37 years.
    Now, we certainly can encourage the buy-in. We can nudge 
the buy-in. We can try to direct and guide the buy-in.
    But I had, you will recall, I had the somewhat dubious 
pleasure of being the United States Ambassador for 3 years to a 
country whose government was determined to have an adversarial 
relationship with us. I will not identify it other than to say 
its capital is located in Caracas.
    I could not have delivered one single successful program in 
terms of institution-building in those 3 years in that country 
because the government would not cooperate.
    That is the point I am trying to make. With some countries, 
our strategy has to be a periphery strategy. What can we do 
around the edges to address those issues that represent a 
threat to the United States? What we want to do is work with 
the government, with its commitment and its buy-in for these 
programs, so that they themselves are supporting what we are 
trying to accomplish, what we are putting resources into, and 
what we are doing the training for capacity-building.
    Senator Menendez. Mr. Chairman, I would just--I appreciate 
your courtesy.
    Then in countries like Venezuela and others, this is not 
unique to them, where they are operating in a way for which 
there is significant operations in transnational crime, then we 
must find other ways, if we cannot induce them to participate 
and have them institutionally decide to move in a direction 
that is both good for their people and in our national 
security, then you have to find other ways, it seems to me, to 
pursue actions that will get them to that.
    I look forward to working with the chair and the ranking 
member to think about those ways, because otherwise we abdicate 
large swaths of countries in which we are undermined in our 
overall goal.
    The Chairman. I appreciate that. As a matter of fact, I 
would say, based on my trip to Venezuela that took place not 
long ago, I cannot imagine anything constructive that they 
would be willing to work with us on under the existing 
government. So I agree with you. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Thank you, Secretary Brownfield. I wanted to ask you some 
questions about cyber, and I may get to one about fentanyl.
    When we talk about cyber so often in this body, in this 
committee, but I am on the Armed Services Committee as well, we 
so often talk about it as a state vs. state. Our cyberthreats 
tend come to from state actors. I am just intrigued by your 
position at State.
    Talk to us a little bit about cyber activities you see from 
transnational criminal organizations rather than direct state. 
What is the magnitude of this threat? What are trends in terms 
of cyber activity by criminal organizations that we need to be 
aware of?
    Ambassador Brownfield. Senator, I think you have already 
put your finger on the three areas where cyber and call it 
misuse or unlawful use of cyber constitutes a threat to the 
United States. One is state-to-state, and it is a matter of 
intelligence, for all intents and purposes, either intelligence 
collection or intelligence manipulation.
    The second is terrorism, which it is connected to but we 
have treated it as a different issue from the rest of 
transnational organized crime, and that is the use of cyber for 
the purpose of supporting in some way, shape, or form terrorist 
activities and terrorist operations.
    The third is pure criminal activity, which is to say the 
use of cyber for the purpose of stealing or in some way 
illegally enriching oneself or one's organization.
    My suggestion at the end of my oral statement was, as we 
look at transnational organized crime into the 21st century, we 
had better be careful because as we make progress on other 
elements, we may discover that it winds up being the greatest 
not just law enforcement, but even security challenge to the 
United States of America.
    That is the challenge that we have before us. The challenge 
that I have is dealing with two different communities as well 
as my own kind of law enforcement and criminal justice 
community and figure how we can mutually support or borrow from 
one another in terms of technologies, techniques, and systems 
that we have developed for dealing with these issues.
    They are similar but they are different. As you well know, 
based upon other committees that you sit on, if you are working 
an intelligence issue or a terrorism issue, you are not 
necessarily thinking about developing a case for prosecution in 
a court of law. If you are dealing in my area of criminal 
justice, that is exactly what you are dealing with.
    Then the question is how much we can borrow from one 
another before we have contaminated the product. Either we have 
contaminated their intelligence or counterterrorism product, or 
they have contaminated ours.
    Those are the sorts of challenges that I am dealing with 
every day on the matter of cyber.
    Senator Kaine. You mentioned in your written testimony, 
just one quick sentence: ``The Council of Europe's Convention 
on Cybercrime, for example, provides a model for countries to 
develop domestic legislation and provides a platform for 
increased cooperation in cybercrime investigations.''
    Is the United States actively engaged with that council or 
similar multinational efforts to specifically focus on 
cooperation vis-a-vis cybercrime?
    Ambassador Brownfield. Senator, we have adopted the 
convention of the Council of Europe. We did it not because we 
are members necessarily of the Council of Europe or that we 
were a European nation. We did it because, as we looked at the 
entirety, if you will, of international conventions on the 
matter of cybercrime about 5 or 10 years ago, we thought this 
was the best product out there.
    Our view was, rather than reinvent the wheel, rather than 
creating something else from scratch, bringing in 196 different 
governments, all of whom will have their own particular point 
of focus or interest or concern, let's use the existing 
document.
    There are some that disagree. The Government of China tells 
me on a fairly regular basis, which is to say every time I talk 
to them, that they would like there to be a new international 
convention on cybercrime. I can understand their position, but 
my own view is, let's not throw away a working vehicle if, in 
fact, with minor modification, it can be made to run well for 
the next 50 or 60 years.
    Senator Kaine. One last question, if I could, if you were 
to give--that was international cooperation--inside the U.S. 
family, if you were to grade the level of cooperation between 
the different agencies that touch this, the three kinds of 
cyber areas you mentioned, whether it is state-to-state or 
terrorism or pure criminal activities, you are talking DHS, you 
are talking State, you are talking DOD, you are talking intel 
agencies, what grade would you give currently to the level of 
coordination among the parts of the Federal family that touch 
upon this important issue?
    Ambassador Brownfield. Yes, that is an unfair question. But 
I have been in this business long enough that I am willing to 
take a risk and say things I should not say probably.
    I would put it this way, Senator. We have probably moved 
from a C- up to a B- in the last 5 years. That is to say that 
we are moving in the right direction.
    What we are pushing against are decades-long, institutional 
biases and approaches from specific communities. We are pushing 
against some degree of stove-piping, which is to say each 
organization has its own capability and are not particularly 
anxious to relinquish control over that and mix it in with 
somebody else. And we are dealing with different desired 
outcomes or objectives.
    And it is a tough challenge. The easy answer would be to 
tell you or allow you to say to me you guys are just stupid, 
you cannot figure it out, and do it on your own. It is a bit 
more than that. This is complicated. This is an issue where we 
are bringing together different communities that have 
traditionally, over the last, oh, 300 or 400 years, not worked 
very closely together.
    In some ways, may I offer one ground for hope from the 
State Department side, part of the solution is the embassies, 
at least those embassies that are in the middle of the 
particularly dangerous zones, there it is the United States 
Government in microcosm. We have a mini president with 
presidential authorities. We call him or her the ambassador. 
And when you boil it down to a smaller group of people, there 
they actually are able to work through some solutions, which we 
then find, you flip them back to headquarters, and we try to 
use the same solution here.
    It is actually one of the reasons why I have some optimism 
in this field.
    Senator Kaine. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    If you would, Mr. Brownfield, would you expand a little bit 
on what is occurring in China as you did in our office.
    Ambassador Brownfield. China today, Mr. Chairman--and this 
is not evil. This is not bad.
    China is today perhaps the world's largest pharmaceutical 
industry. I read a figure recently that there are 160,000 
pharmaceutical companies in China. That strikes me as high, but 
I read the figure. Do not ask we where I read it, but I can 
find it at some point, if I have to.
    China then confronts a situation where they have an 
incredibly diverse, extremely energetic pharmaceutical industry 
that is not anxious to be regulated. The Chinese Government has 
moved in the right direction in a number of areas. Within the 
last 6 months, they have moved to register 116 new psychoactive 
substances. This is the stuff that the pharmaceutical 
industries of the world can [unintelligible] at a rate of 
several hundred per year with a registration rate in the United 
Nations system of somewhere between 20 and 30 per year. You can 
do the math, in terms of what the impact in that regard is.
    One of the areas which we have consistently discussed with 
the Chinese Government, Senator Cardin, is fentanyl, where we 
have noted that fentanyl is produced in many different forms or 
analogs in China. They have moved to register, which is to say 
to control, to require a license for the production of many 
forms of fentanyl, but not all.
    Your question, Mr. Chairman, suggests this answer, which is 
an accurate one, the overwhelming majority of fentanyl that is 
consumed in the United States of America, which also produces 
fentanyl, by the way, for legitimate medical purposes, but very 
little of that slides out into the black market. The 
overwhelming majority of fentanyl that is consumed in the 
United States of America as part of the heroin crisis is 
produced in China.
    The Chairman. And explain to those who are watching the 
difference in profitability.
    Ambassador Brownfield. It is phenomenal, if you assume that 
the cost of producing fentanyl is not significantly different 
from the cost of producing heroin. From a rough estimate 
perspective, that is not a bad assumption, Mr. Chairman. A gram 
of fentanyl, a gram of heroin, would probably end up being 
about the same.
    The gram of fentanyl will produce a buzz, a high, whatever 
the noun is you wish to use for it, about 100 times, 80 to 100 
times, as powerful as morphine, and 40 to 50 times as powerful 
as heroin. So you just do the simple math here.
    Add to that the fact that the transport of fentanyl can be 
as simple as taking an envelope and putting several thousand 
doses of fentanyl in the envelope, sealing it, putting stamps 
on it, and putting it in the mail. The delivery is much, much 
simpler than the delivery for heroin.
    The Chairman. If you will, to explain to those who are 
listening to this, the size of an equivalent cocaine delivery, 
if you will, that has the same potency that you just described. 
You are talking about half a shoebox for what you just 
described. Is that correct?
    Ambassador Brownfield. Yes. That is basically right. I 
would say that a half shoebox of fentanyl would provide you the 
same amount of buzz, in purely psychic and drug-related terms, 
as 25 full shoeboxes of heroin. That is the difference that we 
are looking at.
    That is why an envelope produces as much as a substantial, 
like multi-kilo, shipment of heroin.
    And fentanyl in and of itself, if properly used, Mr. 
Chairman, doesn't kill you. It is still used in the American 
medical community under obviously tight control by an 
anesthesiologist. The problem that we have is when the fentanyl 
is mixed with heroin and the user either does not know he has 
fentanyl at all or has bad fentanyl or has miscalculated, given 
the potency of the fentanyl, how much he can absorb.
    That is what is killing Americans at the rate they are 
dying these days in the heroin crisis.
    The Chairman. I look forward to another round of questions 
where we can talk a little bit about authorities that you might 
like to have to do your job better.
    But with that, Senator Cardin?
    Senator Cardin. Just to underscore that point, in my 
meetings that I have had in Maryland, the fentanyl issue has 
been highlighted as the growing problem, and where we get most 
of our overdose fatalities. So it is a very, very serious 
problem today in Maryland and around the Nation.
    I do not think we are going to have time today to 
understand this, but I think you are suggesting that the 
source, China, is one of the largest sources that is coming 
into the United States. Is that correct?
    Ambassador Brownfield. Yes. The overwhelming majority. 
Although much of it comes in via Mexico, but that----
    Senator Cardin. The criminal elements that are bringing it 
into the United States are similar to the heroin trafficking?
    Ambassador Brownfield. They are. In fact, more often than 
not, Senator, they are exactly the same criminal organizations.
    Senator Cardin. But they are using it as a source? Rather 
than homegrown poppy in Mexico, they are doing the synthetic 
drug in China?
    Ambassador Brownfield. My view, as of right now, as to how 
this is happening is that the heroin itself is grown and 
produced in Mexico, that which is consumed in the United 
States. The fentanyl is produced in China, much of it, probably 
most of it. It is then processed, shipped through Mexico, where 
it is then put into the pipeline, the same pipeline that moves 
heroin into the United States.
    Senator Cardin. Here I hope that your relationship with the 
Mexican authorities is helping us with our capacities to try to 
stop that flow from China to Mexico to the United States.
    Ambassador Brownfield. Yes. In fact, again, Senator, the 
Government of Mexico has worked with us. Fentanyl is a 
controlled substance in Mexico. It is not openly available so 
that it can only move through Mexico through criminal means.
    So we are starting from a positive starting point. We 
still, obviously, have a lot of work to do.
    Senator Cardin. You said in your oral presentation, you 
have it in your written presentation, the direct relationship 
between corruption and transnational organized crime. You talk 
about governments that are corrupted at the senior level are 
ripe for this type of activity, and you talked about the impact 
it has within the country itself.
    So I want to hone down, just for a moment, on the 
corruption issues we have in regards to the heroin or the 
synthetic drugs coming into the United States. There are 
problems in Mexico and the United States. Can you just tell us 
the degree to which corruption is entering into this and what 
we should be aware of?
    Ambassador Brownfield. Sure. Senator, corruption is the 
great enabler for drug trafficking, quite frankly, for any kind 
of trafficking, criminal trafficking, in the world, to such an 
extent that I would say that if you did not have corruption, 
the trafficking networks would not work. They could not 
operate.
    The corruption literally is corruption of individuals. They 
might be customs officials. They might be border officials. 
They might be police or airport or seaport officials. In other 
words, the corruption that allows them to move their physical 
product through the chokepoints--because any trafficking 
network will have to chokepoints. They usually are at borders. 
They might be at airport borders or seaport borders. But they 
have to move their product through there.
    As they move into money laundering, they have to deal with 
bankers and others in the financial institutions who will be 
aware of what is moving through but willing either to 
participate or look the other way. Those are corrupted 
officials.
    At the end of the day, if a trafficking organization does 
not have a network of corrupted officials, it will not succeed.
    Do we see them in Mexico? Yes, of course, we do. As you 
well know, you will find them, perhaps in different numbers, 
but you will find them in the United States of America as well. 
We are not immune to corruption.
    And in countries with a lower income level than in the 
United States, the possibility of a multibillion-dollar company 
or cartel offering a sum of money that might equal 100 years' 
salary to a police officer or a customs official solely to look 
the other way is a tremendous inducement. And it is why 
corruption, in my opinion, has to be one of our highest 
priorities as we address transnational organized crime, perhaps 
for the rest of this century.
    Senator Cardin. Let me just point out that Secretary Kerry 
recently announced a $70 million program in regard to fighting 
corruption. I would just urge that we maybe look at additional 
resources here, and I thank you very much for highlighting that 
point.
    Thank you, Mr. Chairman.
    The Chairman. Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    And thank you for being here today and your testimony.
    I wanted to follow up and perhaps talk a little bit further 
about Mexico as well. I had the opportunity to visit with many 
in their government this past November. We talked a little bit 
about the Merida Initiative and some of the efforts taking 
place there.
    How effective do you think the Merida Initiative has been? 
Since 2008, we spent about $1.5 billion in taxpayer money. How 
has that been? I know they are making some changes as well in 
Mexico on judicial reform. Can you maybe talk about both the 
effectiveness of the initiative and perhaps how their changes 
in judicial prosecutions will affect transnational crime, drug 
trafficking issues, et cetera?
    Ambassador Brownfield. Senator, I am going to answer your 
question in two parts. First, I am going to work through the 
four so-called pillars of the Merida Initiative and offer my 
views on how successful we have been on each one.
    One pillar was a modern 21st-century border between the 
U.S. and Mexico. I think we have made tremendous progress 
there. I think they have equipment, they have capabilities, 
they have people that they did not have before.
    We have reached a point now where we are focusing much more 
effort on Mexico's southern border, that with Guatemala and 
Belize, because much of what we are trying to control and 
manage is the flow of migrants and people as well as drugs 
through Mexico.
    Second is taking down criminal organizations. They have 
done a very good job of taking down the leadership of a number 
of cartels. A critic or skeptic would push back and say, yes, 
but they seem to be replaced, and the cartels have not 
disappeared. Some have. Some have not. I would give them at 
least a passing grade in that regard.
    Third is building stronger institutions. I do believe that 
the federal Government of Mexico today has far better, more 
professional, better trained and equipped institutions than 
they did at the start of the Merida Initiative 7 or 8 years 
ago.
    The challenge now, in my opinion, is trying to take that 
capacity and expand it into the 32 states as well as the 
federal district of Mexico City, since Mexico, like the United 
States, is a federal state.
    Finally, building stronger communities, particularly up 
along near their northern frontier with the United States, I 
mean, the truth is the Mexican economy is what drives that. 
When the economy is going well, the communities are better. 
When the economy is down, the communities are less strong.
    That is taking the four things that we described as our 
Merida Initiative and giving them a report card.
    Where are we across-the-board?
    First, the realities are changing. We are dealing today 
more with transnational organized crime. When we started 
Merida, we were focused on largely cocaine and, to a lesser 
extent, heroin. We have to adjust Merida to reflect that 
reality.
    Second, we were dealing with a different Mexican 
Government. That government left office at the end of 2012. The 
now not-so-new-government has a right to determine its own 
priorities. I think we are making progress there, but we have 
to continue to work that.
    At the end of the day, my assessment is we are 
substantially better in our bilateral relationship with Mexico 
today than we were at the start of the Merida Initiative. That 
in and of itself gives good value to the United States of 
America.
    Senator Gardner. One of the concerns I picked up on, 
particularly when it comes to drug trafficking issues, was 
concern from some that decriminalization efforts of marijuana 
in the United States was hurting our efforts to stop drug 
trafficking out of Mexico. Can you talk about that perhaps?
    Ambassador Brownfield. Yes, I will do it carefully, 
Senator. I am aware of who I am speaking to right now.
    I will say that it is impossible for me to go to Mexico and 
talk to the Mexican Government without hearing from virtually 
everyone I talk to the seeming contradiction between us seeking 
to cooperate with them in terms of controlling dangerous drugs 
while, in our own Nation, four States of the union have now 
proceeded to legalize, by which I mean the State Government has 
a direct financial interest in the cultivation, production, 
sale, purchase, of cannabis.
    I understand their message. I do not seek to dictate to the 
people of Colorado, Oregon, or Washington State, or Alaska, 
what they will decide to do. I do think I understand the United 
States Constitution and the Federal system of government.
    I say that it complicates my life internationally. And I am 
going to leave it at that, because I do acknowledge the people 
of Colorado have every right in the world to determine the laws 
that they wish to be governed by.
    Senator Gardner. I have run out of time here, but perhaps 
we could have another conversation about Burma. I recently 
visited there, and we spent a tremendous amount of time talking 
about the drug situation there. The 2016 report, International 
Narcotics Control Strategy, talked about Burma continuing to be 
a major source of opium and exporter of heroin second only to 
Afghanistan.
    So perhaps we could submit a question for the record for 
you in terms of Burma collaboration, what is happening with the 
new democratic government in Burma, in terms of the production 
eradication efforts in trafficking, and then I would like to 
talk a little bit further and get more detail on the 
trafficking of drugs in Burma by the Burmese military and their 
complicit role they play in this ongoing effort.
    So I would like a little bit more about that at some point.
    Ambassador Brownfield. Senator, I welcome the question, 
because, I have to tell you, the timing I think is very good. 
My read of Burma right now is this new government actually is 
ready to do some serious things on drugs and counternarcotics 
that they have not been willing to do for 30 years.
    Senator Gardner. Thank you.
    Thank you, Mr. Chair.
    The Chairman. Thank you. You have been a great witness, and 
we thank you for the commitment and time and knowledge on this 
topic. Let me just wrap up.
    I want to go back to Colombia for a second. When the 
President was here, everyone was spiking the ball, if you will. 
Negotiations on FARC were progressing and people were happy and 
all of that.
    But I guess as I prepared for this hearing today, it feels 
to me like the reason things are progressing politically is 
they are easing up on the very thing we began working on so 
hard, and that was production within their own country.
    I just want to make sure I leave here with a proper 
understanding from a witness who has lived and breathed this.
    Ambassador Brownfield. Mr. Chairman, I am going to give you 
an honest answer, but a careful answer. I want to be careful 
because I said it before and I will say it again, I admire and 
respect tremendously the Government of Colombia. Until he 
became President, I would have called the current President of 
Colombia a friend of mine. You obviously cannot be a friend to 
President. They are far too distinguished to permit something 
as low and common as common friendship.
    But I know and admire Juan Manuel Santos enormously. I 
respect what is trying to do. He is trying to bring to 
conclusion a 50-year armed conflict that has killed tens of 
thousands of Colombian citizens. I not only respect that, I 
support it and endorse it.
    It is my view that it should be possible to pursue those 
negotiations to reach that conclusion without having to walk 
the clock back to where we were 8 or 9 years ago, in terms of 
drug cultivation and production in Colombia. It is my view that 
it should be possible to continue to eradicate or have the 
threat of eradication so that thousands of campesinos, many of 
them encouraged perhaps by the FARC guerrillas, do not believe 
that it is open season on planting as much coca as they might 
wish.
    We have opened a discussion with them. It is a good 
discussion, because these guys are our friends. We have been 
partners and allies with them now for more than 16 years under 
Plan Colombia.
    I do not mean to be critical of them. I mean to state an 
obvious fact. The amount of cocaine being produced in Colombia 
has doubled in the last 2-plus years. That is kind of a 
disturbing fact, since most Colombian cocaine traditionally and 
historically is transported to the United States.
    We need to work together to figure out how to deal with 
eradication, which is to say to stop the actual cultivation; to 
deal with taking down the laboratories, which convert the raw 
coca into cocaine; to go after the criminal organizations, 
those organizations, not necessarily the FARC guerillas, but 
the criminal organizations that are trafficking the product; 
and then, finally, how to interdict the product as it is moving 
from Colombia to North America; and how to attack their 
financial networks.
    It should be possible to do that. I intend to do that. You 
have my absolute word of honor that there will not be an 
opportunity of mine when I am talking to the Government of 
Colombia when I do not make this point and have this discussion 
with them.
    The Chairman. But my sense is, for what it is worth, we 
missed that opportunity when he was here last. And there was a 
lot of happy talk here about Plan Colombia.
    What I hear you saying, with all your niceties regarding 
the government and your friendship with the existing President, 
is that he is not pursuing both tracks in the way that he could 
be, that he is pursuing the relationship with FARC and ending 
what has certainly been a blight on their country for a long 
time, but he is not pursuing as heavily the issue that has been 
at the core of this, and that is production of cocaine in their 
country that is coming to the United States in the way that he 
could.
    Ambassador Brownfield. Mr. Chairman, I am not going to walk 
that far down this road. I am going to go back to where I left 
it before.
    We are talking. We are moving in the right direction. How 
we got there, I am going to leave that to the historians and 
the people far smarter than me.
    What I will say is that I believe there is now a 
realization we have a serious problem, and we are now talking 
to our friends and partners and allies in the Colombian 
Government as to how to solve this problem.
    And on that, I feel pretty good. We are all entitled to our 
own views as to how we got into this situation. The only point 
that I am making is, I believe we are working on a route out of 
it. We know how to do it. For the love of Pete, it is what we 
were doing from the year 2000 until the year 2012, 2013, very, 
very effectively. And I am determined that we are going to do 
it again.
    That is the way I would respond to your valid comments.
    The Chairman. We are the authorizing committee for the work 
that you do. Are there some authorities that we could provide 
to you that would cause your job to be easier, to be 
successful?
    Ambassador Brownfield. Mr. Chairman, I am going to answer 
that question this way. Obviously, as one Assistant Secretary 
among several, and one department among a bunch in the Federal 
Government, I will not express a view as to what the executive 
branch believes it needs in terms of new authorities.
    I will state the following, however. The last authorization 
that INL received was more than 20 years ago. Since that time, 
the United States has moved from a cocaine crisis to a heroin 
crisis. We have moved from a drug-focused international crime 
effort to a larger transnational organized crime effort. We 
have moved from an overwhelming focus on the Western Hemisphere 
to having to deal with places like Afghanistan and Myanmar.
    Are there areas that were not addressed in the early 1990s? 
Yes, undoubtedly there are. And I would welcome a discussion 
with this committee in the months ahead.
    The Chairman. Thank you.
    Senator Flake?
    Senator Flake. Thank you for your testimony.
    If we can talk about sub-Saharan Africa for a bit, it has 
many of the characteristics that make it prone to transnational 
terrorism and financing and criminal networks operating.
    Let's talk about East Africa for a minute with al-Shabaab. 
What evidence do we see there of transnational criminal 
networks operating?
    Ambassador Brownfield. Huge evidence, Senator. In fact, I 
mentioned it in my oral statement, and I would say it again 
right now. Africa is, from my perspective, one of my three 
principal focuses, foci, as I look outside of the Western 
Hemisphere, in terms of direct criminal networks with direct 
impact on the United States.
    The reason is that two specific parts of Africa, West 
Africa and south East Africa, have become transit points for 
trafficking flows that are moving either east-west from Asia en 
route to markets in Europe or North America, or north-south, 
which is to say from, say, South America into West Africa and 
then seeking market in Western Europe, if not flipping back 
across.
    We need to have focus on both of these from a pure 
trafficking perspective. The problem that we have is weak 
institutions in a number of countries in Africa, which make 
them very attractive for multibillion-dollar trafficking 
organizations.
    We also have organizations like al-Shabaab or Boko Haram or 
further up north Al Qaeda or the Islamic State, which are able 
to corrupt and then use government institutions as well.
    Africa, from my perspective, is a very important point of 
focus without even going into the wildlife trafficking area, 
which we have become engaged in more aggressively over the last 
3 and 4 years.
    Senator Flake. What are some of our strategies in East 
Africa. Let's take it with al-Shabaab. There are concerns, 
obviously. It is a transit point along the coast there. 
Obviously, we have concerns. What are we doing?
    Ambassador Brownfield. First, you have correctly summarized 
the nature of the threat, and the nature of the threat is 
product and criminal activity that originates, for the most 
part, in South Asia, although the product may actually be 
further up in Central Asia. Then it is transported from South 
Asia to East Africa for, in a sense, transshipment.
    That becomes a point where it is introduced into a north-
south access moving either to Europe or flipping across the 
continent and moving into North America.
    What we are trying to do is build institutions that are 
better capable of addressing the problem, providing direct 
support, operational support to existing law enforcement 
organizations, and using vetted units or specialized units in 
whom we have a great deal of confidence and are able to share 
intelligence and information with, and ensuring that their 
regional coordination and cooperation is such that permits them 
to actually pass off or hand off movements or organizations 
that are moving across borders and frontiers so that crossing a 
frontier doesn't completely lift all of the danger to the 
criminal trafficking organization.
    And I would say that in East Africa, we are better today 
than we were 5 years ago. We are still miles away from being 
able to say that we are comfortable with and confident that 
these countries and these governments can control their own 
borders.
    Senator Flake. Do we have any successes that we can point 
to specifically in terms of cooperation with local officials 
that has yielded benefits that are tangible?
    Ambassador Brownfield. We have had several major drug 
seizures, mostly heroin, coming in from Southwest Asia that 
have been picked up, for the most part, at seaports, in some 
cases at airports.
    In fact, I will shoot you, if you wish, I will get you a 
written summary of some of those success stories. We have also 
taken down several of what I would call midsized trafficking 
organizations in East Africa, although not the international or 
global organizations. And we have had some success, some of 
which has made the newspapers, in terms of reducing if not 
shutting down the flow of what is one of Africa's great 
criminal exports, and that is illegally trafficked ivory and 
rhino horn. So I would suggest to you we do have some success 
stories. They are not as many as I would like to be able to 
report.
    Senator Flake. Thank you.
    The Chairman. Thank you.
    Mr. Secretary, you have been an outstanding witness. We 
thank you again for your years of commitment to this issue. We 
look forward to following up with you relative to some updates 
that may occur that give you greater freedoms and flexibilities 
to do your job.
    I know that you have a hard stop for a meeting that you 
need to attend, so thank you again for your time, both here, 
but also in preparation for the meeting. And we look forward to 
seeing you again.
    There will be other questions that people will have in 
writing, and we will keep the record open until the close of 
business on Monday. If you could get to those fairly promptly, 
we would appreciate it.
    The Chairman. But thank you again. And with that, the 
meeting is adjourned.
    [Whereupon, at 11:48 a.m., the hearing was adjourned.]


                              ----------                              



              Additional Material Submitted for the Record


            Responses to Questions for the Record Submitted 
     to Assistant Secretary Brownfield by Members of the Committee

responses to questions for the record submitted to assistant secretary 
                      brownfield by senator corker

    Question 1.  The U.S. was able to help the Colombian government 
strengthen the rule of law across its territory. There were of course 
some key variables present, including Alvaro Uribe. Is that experience 
actually replicable elsewhere? How, for example, can it be done in 
Central America?

    Answer. For nearly two decades, Colombia and the United States have 
worked together to bolster rule of law in Colombia and throughout the 
hemisphere, including by confronting transnational crime and minimizing 
the harmful effects of criminal activity, including narcotics 
trafficking. This partnership has demonstrated results: Since 2002, 
Colombia has experienced an 89 percent reduction in kidnappings and a 
48 percent reduction in homicides. Colombia has emerged as a supplier 
of civilian security assistance and expertise through the U.S.-Colombia 
Action Plan on Regional Security, whereby Colombian security officials 
train and advise their counterparts throughout the hemisphere.
    The situation our Central America partners face is similar, but not 
identical, to Colombia's experience, requiring an assistance approach 
tailored to the realities on the ground. Unlike Plan Colombia, our 
engagement in Central America encompasses multiple countries with 
differing levels of development. Success requires action from several 
governments instead of one to strengthen rule of law throughout the 
region. The Department identified three lessons learned from Colombia 
that informed our general approach to the development of the Central 
America Regional Security Initiative (CARSI) and later the U.S. 
Strategy for Engagement in Central America: 1) Dramatic change is 
possible; 2) Partnership is essential; and 3) Enhancing civilian 
security requires a sustained, comprehensive approach.
    Our experience in Colombia, when coupled with similar lessons 
learned from the Merida Initiative in Mexico, demonstrates that each 
country is complex, nuanced, and requires an approach that harnesses 
the entire breadth and depth of law enforcement, criminal justice, and 
community violence prevention tools at our disposal. Lasting change 
also requires a long term commitment on both sides. Our approach to 
implementing the U.S. Strategy for Engagement in Central America builds 
upon these past experiences, drawing from best practices and lessons 
learned while adapting to realities and conditions on the ground. Many 
challenges in the region are deeply entrenched, but they are not 
insurmountable.


    Question 2.  Crime and insecurity are said to reduce GDP growth by 
as much as 8% in some developing countries. In the past, Congress 
enacted trade preferences for Andean nations both as an incentive for 
cooperation on counter-drug operations and to boost legal commerce. How 
can we best align policies to encourage sustainable economic growth 
with efforts to combat Transnational Organized Crime?

    Answer. The President's 2011 Strategy to Combat Transnational 
Organized Crime highlighted transnational organized crime's 
exploitation of poor governance, insecurity and corruption. Taken 
together, these conditions enable the expansion of transnational 
organized crime and impede the ability of international partners to 
achieve sustainable growth. Although trade relationships are not within 
INL's direct purview, the Administration and Department recognize that 
many of the same conditions conducive for U.S. investment and trade can 
also reduce the ability of transnational organized crime to operate. In 
particular, countries must take effective steps to reduce corruption 
and promote transparency and reliable rule of law; protect the 
integrity of global supply networks to reduce illicit trade; provide 
access to justice and formal dispute mechanisms; and protect 
intellectual property rights from copyright infringements and piracy.
    The Administration has pursued these objectives as part of its 
trade negotiations, most notably in the Trans-Pacific Partnership 
(TPP). The TPP has established new standards for action against 
corruption as part of a trade agreement, including commitments to 
adopt, maintain, and enforce criminal laws to deter corruption by 
public officials, to maintain codes of conduct to promote integrity 
among public officials, to adopt laws criminalizing corruption in 
accounting practice, and to effectively enforce anti-corruption laws. 
Participants must ratify or accede to the United Nations Convention 
Against Corruption and criminalize bribery of public officials. They 
should also have a code of conduct in place for public officials and 
take measures to decrease conflicts of interest; and take steps to 
discourage illegitimate gifts and discipline officials engaging in acts 
of corruption.
    Transnational organized crime earns annual profits in the billions 
of dollars from intellectual property rights infringement, and the TPP 
also contains a chapter that promotes high standards of protection and 
provides fair access to legal systems in the region to enforce those 
rights. Drawing from and building on other bilateral and regional trade 
agreements, it includes commitments to combat counterfeiting, piracy 
and other infringement, including trade secret theft; obligations to 
facilitate legitimate digital trade, including in creative content; and 
provisions to promote development of, and access to, innovative and 
generic medicines. For additional information on TPP or other trade 
agreements, we recommend you contact the Office of the United States 
Trade Representative.


    Question 3.  Transnational Organized Crime touches otherwise legal 
industries. In our own country and elsewhere, contraband cigarettes are 
trafficked by criminal organizations involved in other illegal 
activities. An interagency report issued last December, entitled ``The 
Global Illicit Trade in Tobacco: A Threat to National Security'', the 
Obama Administration estimated that the illegal trafficking in tobacco 
products costs government worldwide a total of $40-50 billion per year 
in lost tax revenue. How big a problem is contraband tobacco and is it 
a good example of how transnational crime is intertwined with legal 
commerce?

    Answer. The illicit trade in tobacco is a multi-billion dollar 
business that fuels crime and corruption, undermines the rule of law, 
and creates insecurity and instability around the world. As cited in 
the U.S. interagency publication, ``The Global Illicit Trade in 
Tobacco: A Threat to National Security,'' the World Health Organization 
(WHO) estimates that, as of 2006, the world-wide tax loss to the black 
market for illegal tobacco is $40-50 billion annually with illicit 
tobacco products making up 10% of all cigarettes consumed worldwide. 
Within the United States, where the illicit market is mostly contraband 
cigarettes moving between states, a recent study by the National 
Academies of Sciences estimate the annual tax loss related to the 
contraband market in the United States to be $2.95 to $6.92 billion, 
which represents 8.5% to 21% of the market or 1.24 to 2.91 billion 
packs of illicit cigarettes.
    The illicit trade in tobacco products demonstrates how 
transnational crime can become intertwined with legal commerce. The 
Financial Action Task Force concluded in their 2012 report ``Illicit 
Tobacco Trade'' that large scale smuggling operations account for a 
vast majority of the international illicit trade in cigarettes. 
Organized crime groups have been engaged in cigarette smuggling for 
decades and exploit taxation differentials and vulnerabilities in 
supply chains and border security to make substantial profits. 
Depending on the type of illicit tobacco product (contraband, cheap/
illicit whites, or counterfeit cigarettes), the point of departure from 
the licit market to the illicit market varies. Contraband cigarettes 
are produced legally and diverted into the illicit market when the 
appropriate taxes are not paid--unusually at the wholesale or retail 
stage. Cheap whites, or illicit whites, are also produced legally but 
become illicit during the taxation and in transit stages. Finally, 
counterfeit cigarettes are an illicit product at production.


                               __________

            response to questions for the record submitted 
          to assistant secretary brownfield by senator shaheen


    Question 1.  How is the State Department partnering with other 
agencies, like the Department of Homeland Security, on this cross-
cutting issue of counter-narcotics smuggling across our southern 
border?

    Answer. The State Department's Bureau of International Narcotics 
and Law Enforcement Affairs (INL) works with several U.S. federal law 
enforcement agencies and the Government of Mexico to create a 21st 
century border, one that facilitates legitimate commerce and movement 
of people while curtailing the illicit flow of drugs, people, arms, and 
currency across our southern border. INL programs strengthen security 
at Mexico's southern and northern border crossings, points of entry, 
and internal checkpoints to increase Mexico's capacity to stem the flow 
of illicit drugs and counter the activities of drug trafficking groups.
    In collaboration with the Department of Homeland Security (DHS) 
Customs and Border Protection (CBP), INL trains Mexican Federal Police 
officers to better respond to cross-border incidents and coordinate 
operations with the U.S. Border Patrol. INL and the Department of 
Defense (DoD) helped establish a cross-border communications network to 
provide direct voice communication between CBP and Mexican Federal 
Police along the U.S.-Mexico border, enhancing cross-border 
coordination. INL and DHS are currently working to provide data and 
video connectivity and to expand communication capabilities to state, 
local, and tribal law enforcement agencies along the border. INL's 
partnership with CBP has led to coordinated enforcement actions to 
disrupt and degrade drug trafficking organization activities.
    INL also partnered with CBP to provide canines and related training 
to several Mexican agencies at the federal and state level. Mexican 
canine handlers traveled to CBP's Canine Centers in El Paso, TX, and 
Front Royal, VA, to receive training and enhance their interdiction 
capabilities.
    In collaboration with DoD, INL provided telecommunications 
equipment throughout the border state of Chihuahua to enhance 
communication and operational coordination for Chihuahua state police. 
INL is currently working with DoD on a similar project to enhance radio 
network coverage in Mexico's southern border region. This project will 
improve the operations of Mexican agencies along the southern border by 
allowing them to better coordinate enforcement and interdiction 
activities.
    In partnership with the Transportation Security Administration 
(TSA), INL performed a comprehensive security assessment in several 
airports throughout Mexico. These assessments will help guide future 
programming to ensure compliance with international and TSA security 
standards.
    INL also partners with the Drug Enforcement Administration (DEA) to 
enhance Mexico's interdiction capabilities. The DEA provides training 
to augment Mexico's ability to identify, investigate, and interdict 
clandestine heroin labs, and better prepare Mexican law enforcement 
officers to dismantle them.
    INL works also with the Department of Justice to strengthen Mexican 
justice sector institutions and professionalize law enforcement at the 
federal and state levels, developing effective tools to prosecute drug 
traffickers, seize their assets, and limit their ability to influence 
state institutions via corruption and threats of violence.


    Question 2.  Could you describe your Bureau's cooperation with the 
Defense Department to counter transnational crime and narcotics 
smuggling? To what extent do Defense Department authorities overlap 
with State Department foreign assistance authorities? How should State 
and DOD share the responsibility and resources devoted to building law 
enforcement capabilities to combat transnational crime?

    Answer. INL and the Department of Defense provide complementary 
assistance to international partners under our respective authorities. 
Under the Foreign Assistance Act of 1961, as amended, the Secretary of 
State is responsible for providing counternarcotics and anti-crime 
assistance to foreign governments and international organizations, and 
for coordinating all such assistance of the U.S. government (22 U.S.C. 
2291). Many activities conducted under DoD's temporary counternarcotics 
support authorities could also be conducted under INL's broader 
assistance authority.
    Presidential Policy Directive 23 (PPD-23), issued in April 2013, 
governs the process by which the U.S. government coordinates Security 
Sector Assistance (SSA), including to foster interagency policy 
coherence and collaboration. The PPD requires the Department of State, 
designated as the lead agency for SSA, and other agencies, including 
the Department of Defense, to work together to coordinate SSA 
activities, from planning, to formulation, through to implementation 
and monitoring and evaluation to ensure that the U.S. is projecting a 
coordinated foreign policy through our security assistance activities. 
PPD-23 coordination between the Department of State and Department of 
Defense is particularly important as Department of Defense authorities, 
SSA funding levels, and U.S. military activities involving civilian 
entities overseas have increased substantially over the past several 
years.
    In general, law enforcement capacity building should be civilian-
led and focused, rather than military. In some cases, DoD-led 
assistance may be more appropriate given resources, security, or other 
requirements. However, in such circumstances, all programming should be 
subject to appropriate foreign policy oversight to ensure it advances 
broader policy objectives and the development of the recipient's entire 
security sector in the long term.


    Question 3.  Unfortunately, Afghanistan remains the world leader in 
opium production, which is a critical source of revenue for the 
Taliban. As the Afghan government confronts a militarily resurgent 
Taliban, are there opportunities to undercut their ability to finance 
operations by stepping-up Afghan counter-drug efforts?

    Answer. Despite a difficult security situation, we are working 
closely with the Afghan government and expanding our collaboration with 
the U.S. Department of Defense to intensify our counternarcotics 
efforts. In the last two years, the State Department's Bureau of 
International Narcotics and Law Enforcement Affairs (INL) has worked to 
support two specialized units of the Counter Narcotics Police of 
Afghanistan--the Sensitive Investigative Unit (SIU) and the National 
Interdiction Unit (NIU). These units partner with the U.S. Drug 
Enforcement Administration (DEA), and have arrested individuals and 
targeted production facilities that exist in insurgent-held areas. In 
2015, the SIU and NIU conducted 309 operations, seizing 15.2 metric 
tons (mt) of opium, 6.7 mt of morphine and morphine base, and 76 mt of 
hashish. This year, the NIU arrested major Afghan trafficker Haji Watan 
in Nangarhar, who was later sentenced to 17 years in prison. Also, on 
May 13, on a single operation in Nangarhar, the NIU (with support from 
a U.S. Special Forces unit) destroyed two tons of opium, heroin, and 
partially processed morphine as well as two laboratories. On June 5, 
the NIU executed search warrants on labs in Badakhshan province as part 
of an airmobile assault, seizing 173 kilograms (kgs) of heroin and 
morphine. Despite the finite number of security forces available to 
fight both the insurgency and conduct counternarcotics operations, the 
Afghan government understands the nexus between the Taliban and illicit 
drug revenues, and has made an effort to apply pressure on traffickers 
wherever security conditions permit.


    Question 4.  Much like the Taliban, Hizbollah in Lebanon is another 
terrorist group that mixes its terrorist activity with criminal 
activity. How are counterterrorism and counter-crime objectives 
complementary and what are some examples of where we are working to 
combat this convergence?

    Answer. Terrorism and transnational organized crime, and the 
instability, corruption, and violence they cause, pose threats to the 
interests and security of the United States. Countering these 
challenges requires reliable international partners with the 
determination and capacity to uphold the rule of law. Through 
collaborative assistance, the Bureau of International Narcotics and Law 
Enforcement Affairs (INL) builds partner country criminal justice 
capacity and the Bureau of Counterterrorism and Countering Violent 
Extremism (CT) expands on this capacity to enhance skills specific to 
the investigation and prosecution of acts of terrorism. Building the 
capacity of the criminal justice sector to fairly and justly fight 
crime increases public confidence in security forces and improves 
government legitimacy, creating space and credibility to combat 
extremism and terrorism. Anti-crime efforts often work to reduce 
funding streams for terrorist activities.
    In Lebanon, INL training for the Lebanese police, the Internal 
Security Forces (ISF), the Ministry of Interior, and the Ministry of 
Justice promotes increased skills in criminal investigation, police-
prosecutor collaboration, financial and cyber-crimes, forensic 
capacities, crisis management and response, as well as improved 
criminal justice data integration throughout the entire criminal 
justice system. INL assistance works to ensure that Lebanese law 
enforcement institutions address criminal and terrorism concerns in a 
comprehensive and deliberate manner, serve the public more effectively, 
and are seen as a more capable and legitimate force that have the 
authority to project the government's sovereignty and authority 
throughout Lebanon. Through targeted training and assistance for the 
ISF and other security sector institutions, CT expands upon INL-
supported training to build advanced capacities to stem the flow of 
arms and terrorists across Lebanese borders and to enhance law 
enforcement investigative capabilities that will increase prosecution 
of terrorism and terrorism financing cases and prevent further attacks.
    The Philippines is another example where terrorist groups and 
criminal activity converge. INL addresses this problem by strengthening 
police-prosecutor cooperation, improving prosecutorial training and 
skills development, promoting legislative and regulatory reforms 
designed to improve the operation of the criminal justice system, and 
developing and supporting better use of existing criminal procedure 
tools. CT assistance builds upon this capacity by mentoring and 
training Philippines prosecutors on terrorist legal procedure and 
legislature reform, police-prosecutor cooperation on terrorism cases, 
advanced evidence collection, and anti-money laundering and combatting 
terrorist financing.


                               __________

            responses to questions for the record submitted 
           to assistant secretary brownfield by senator rubio

    Question 1.  According to the 2015 National Drug Threat Assessment, 
Mexican transnational criminal organizations (TCOs) remain the greatest 
criminal drug threat to the United States; no other group can challenge 
them in the near term. They control drug trafficking across the 
Southwest Border and are moving to expand their share of U.S. illicit 
drug markets, particularly heroin markets.
    Based on year over year assessments of the Mexican TCOs activities 
and the increase of heroin availability both in Florida and across the 
United States, why is the U.S. Government failing to stop this influx 
of narcotics?

    Answer. Reducing the influx of narcotics into the United States 
requires effort on both drug supply and demand reduction strategies. 
The State Department's Bureau of International Narcotics and Law 
Enforcement Affairs (INL) is working with the Government of Mexico to 
help build the capacity of Mexico's law enforcement and rule of law 
institutions to disrupt drug trafficking organizations (DTOs) and to 
dimish the flow of heroin and other drugs from Mexico to the United 
States.
    Over the past year, our bilateral dialogue with Mexico on heroin 
has reached an unprecedented level of engagement, leading to enhanced 
U.S.-Mexico collaboration on this critically important issue. In March 
2016, Office of National Drug Control Policy (ONDPC) Director Michael 
Botticelli and INL Assistant Secretary William Brownfield participated 
in meetings with the Mexican interagency, hosted by the Attorney 
General's Office (PGR), to discuss U.S.-Mexico collaboration on heroin 
and potential new areas of assistance. The PGR is now serving as the 
lead on bilateral engagement on heroin, and regularly convenes the 
other Mexican entities involved with the heroin issue. The PGR 
committed to create a National Office for Drug Control Policy to help 
coordinate poppy eradication efforts and the destruction of heroin 
laboratories. The Government of Mexico is currently completing its 
National Drug Policy Plan and corresponding heroin plan. This plan will 
provide a greater understanding of how Mexican government eradication 
and interdiction responsibilities will be organized going forward, and 
it will help the United States identify the best areas for assistance.
    Ongoing INL assistance includes training and capacity building for 
police at federal and state levels, enhancing Mexico's interdiction 
capabilities through the donation of non-intrusive inspection equipment 
(NIIE) and support for canine units, and assistance with Mexico's 
transition to an accusatory justice system to more effectively hold 
traffickers and other criminals accountable. INL is also augmenting 
Mexico's capacity to identify and dismantle clandestine heroin and 
methamphetamine labs.
    We refer you to the Office of National Drug Control Policy (ONDCP) 
for additional details on the U.S. government's strategy to reduce the 
demand for drugs domestically.


    Question 2.  How do you gather information on the activities of 
Mexican TCOs in the United States? How reliable is current information 
on Mexico's heroin and fentanyl production? How might that data be 
improved?

    Answer. The Government of Mexico has taken steps to improve its 
collection of data relating to the production of heroin. They have been 
working with the UN Office on Drugs and Crime (UNODC) and two 
universities, the National Autonomous University of Mexico and the 
University of Natural Resources and Applied Life Sciences in Vienna, 
Austria, to design and validate a methodology for collecting data on 
poppy cultivation. On June 22, 2016, the Mexican government and UNODC 
released their first report on poppy cultivation within Mexico based on 
this methodology. Focusing on data collected between July 2014 and June 
2015, the report notes an average estimate of approximately 24,800 
hectares (ha) poppy cultivated nationwide during the timeframe, and a 
higher end estimate of 28,100 ha, which aligns closely with the 
estimate published by the Office of National Drug Control Policy 
(ONDCP) for 2015. This study serves as a baseline to measure the scale 
of poppy cultivation in Mexico and marks an important step towards 
countering heroin production in Mexico.
    Collection and reporting of data on fentanyl production is not yet 
as advanced as it is for heroin. Because the drug is synthetically 
produced, it is not possible to rely on satellite images and photos of 
crops. Instead, data typically comes from testing seized drugs for the 
presence of fentanyl. The U.S. government is working with the Mexican 
government to identify clandestine laboratories and to increase the 
seizure of illicit drugs through additional training and the use of 
interdiction equipment and detection canines.
    We refer you to the U.S. Drug Enforcement Administration (DEA) for 
additional details on the activities of Mexican transnational criminal 
organizations in the United States and estimates for heroin and 
fentanyl production within Mexico.
Transnational Criminal Organization (TCO) Strategy
    Question 3.  What was the impetus behind this strategy? Who is in 
charge of implementing it in the Western Hemisphere and where does it 
rank in terms of U.S. priorities for the region?

    Answer. The President's 2011 Strategy to Combat Transnational 
Organized Crime (Strategy) reflects the Administration's recognition 
that transnational organized crime (TOC) has expanded dramatically in 
size, scope, and influence over the past two decades and that it poses 
a significant threat to national and international security. The 
Strategy provides a framework to direct U.S. power against those TOC 
actors, activities, and networks on a global scale that are determined 
to pose the greatest threat to national and international security. The 
whole-of-government Strategy establishes several priority actions, 
including; enhancing intelligence and information sharing; protecting 
the financial system against TOC; strengthening interdiction, 
investigations, and prosecutions; disrupting trafficking of drugs and 
other contraband; and building the capacities of and cooperation with 
international partners.
    Within the Western Hemisphere, the Strategy interlocks with and 
guides the relevant strategic goals of several other U.S. security 
assistance, counterdrug, and capacity-building efforts, including the 
Merida Initiative, the Central America Regional Security Initiative, 
and the Caribbean Basin Security Initiative.
    All of these initiatives are based on the Strategy's recognition 
that TOC threats in our hemisphere threaten the health and safety of 
U.S. citizens within our own borders, and among our international 
partners, undermine the rule of law, fuel corruption, and threaten 
public order and citizen security. Implementation of these initiatives 
is overseen by U.S. diplomatic missions, led in each country by the 
respective U.S. Chief of Mission, in coordination with Department of 
State and interagency stakeholders with relevant authorities pertaining 
to specific programs.
Sanctions Related to TCO Strategy
    Question 4.  How have sanctions imposed on TCOs helped combat the 
crime groups that OFAC has named on the list, including los Zetas and 
MS-13?

    Answer. The Department of State refers you to the Department of the 
Treasury for questions regarding sanction programs under the authority 
of and administered by the Office of Foreign Assets Control.


    Question 5.  On the other hand, how do the sanctions limit the 
ability of State and USAID to work with groups in cases like that of 
Central American gangs, where reintegration programs have not been 
carried out due to OFAC's failure to give State/USAID a license to do 
so?

    Answer. USAID and INL generally refrain from investing in tertiary 
prevention programming directed at reducing recidivism for individuals 
already in conflict with the law partly due to OFAC's July 25, 2011 
designation of Los Zetas and October 11, 2012 designation of MS-13 as 
significant transnational criminal organizations (TCOs) pursuant to 
Executive Order 13581.
    Studies and relatively successful implementation of crime 
prevention and reduction programming such as those advocated by the 
Department of Justice's Office of Juvenile Justice and Delinquency 
Prevention, promote and emphasize the need for holistic or 
comprehensive approaches based on differentiated levels of risk that 
include prevention, intervention, law enforcement and reentry programs. 
This type of approach is consistent with our Place Based Strategy, 
which consists of geographically concentrated, evidence-informed 
interventions by multiple stakeholders in strategic high-crime areas 
and is focused on reducing homicides, preventing violence, and 
improving citizen security.
    Only by addressing all these areas can we hope to interrupt youth 
currently involved in a life of criminality who are at the highest risk 
of escalating their participation in crime and violence in the future.


    Question 6.  To what extent are transnational criminal 
organizations funding political campaigns in the hemisphere?

    Answer. Through our embassies, the Department of State and U.S. law 
enforcement agencies are working closely with partner governments in 
the region to confront transnational criminal organizations. We cannot 
address ongoing investigations, but it is clear that criminal 
organizations and corrupt businesses use unlawful means, including 
funding political campaigns, to facilitate their nefarious activities.
    In July 2015, the UN's International Commission Against Impunity in 
Guatemala (CICIG) estimated political parties in Guatemala derived 
around half of their financing through corruption, including 25 percent 
from criminal organizations. The CICIG report cited such factors as 
weak campaign finance regulation, lack of independent media, and 
widespread impunity regarding political corruption. Recent allegations 
of criminal involvement in campaigns include Peru in 2014, when the 
National Jury of Elections listed 345 candidates in local elections who 
had been taken to court for a range of crimes, including drug-
trafficking. In Mexican election results announced June 6, voters 
elected new parties to govern nine states; polls indicated this was 
because incumbents failed to crack down on corruption and violence. 
There was significant press coverage of allegations of criminal 
connections to the campaigns in Chihuahua, Oaxaca, Quintana Roo, Vera 
Cruz, and Sinaloa. The Mexican congress passed a series of anti-
corruption measures in June that should provide greater electoral 
transparency.
    Across the region, citizens, the media, and civil society are 
putting pressure on governments to act against political corruption. 
Through our citizen security initiatives we are working with partner 
governments to strengthen the rule of law, increase transparency, and 
strengthen civil society. It is only with improved law enforcement, 
enhanced judicial systems, and more transparent government institutions 
we can expect to successfully address the threat posed by criminal 
organizations and corruption. The indictment of former Guatemalan 
President Otto Molina Perez on corruption charges and the issuance of 
an arrest warrant for former Panamanian President Ricardo Martinelli 
highlight that governments can take serious action against political 
corruption.


    Question 7.  To what extent have illicit finances from 
transnational crime distorted Central American economies and markets?

    Answer. Central American countries have demonstrated varying levels 
of commitment to rooting out corruption and illicit finance in the 
region and undertaking reforms necessary to achieve an economically 
integrated region that provides economic opportunities to all its 
people; enjoys more accountable, transparent, and effective public 
institutions; and ensures a safe environment for its citizens. In the 
past year, Central American governments have been working closely with 
U.S. government officials on a number of high-profile cases to curb 
illicit finance activities in the region.
    In October 2015, following the Department of the Treasury's Office 
of Foreign Assets Control (OFAC) designation of the Rosenthal Money 
Laundering Organization, which included Jaime Rosenthal, a former vice 
president, and Yankel Rosenthal, a former investment promotion 
minister, Honduras took steps to isolate the designated parties from 
the financial system
    In May 2016, the Treasury Department's OFAC designation of the 
Waked Money Laundering Organization (Waked MLO), six Waked MLO 
associates, and 68 companies tied to the drug money laundering network, 
including Grupo Wisa, S.A., Vida Panama (Zona Libre) S.A., and Balboa 
Bank & Trust was followed by close collaboration with the Government of 
Panama. The Government of Panama took several steps to isolate the 
designated parties from the financial system and the broader economy, 
and Panama's Attorney General continues to work closely with State, 
Treasury, and the Department of Justice, and has stated her commitment 
to continuing to combat criminal activity in Panama.


    Question 8.  How extensive is the criminal infiltration of 
government institutions in the northern triangle of Central America?

    Answer. The Northern triangle governments of El Salvador, 
Guatemala, and Honduras have demonstrated commitment in fighting 
corruption and removing criminal infiltration from government 
institutions through the prosecution of high-profile public officials 
for a broad spectrum of crimes. A few examples highlight these 
governments' commitment to addressing corruption:
    The Guatemalan Attorney General's office, in collaboration with the 
UN's International Commission Against Impunity in Guatemala (CICIG), 
continues to root out corruption at all levels of government. Recent 
successes include the February arrests of tax authority personnel 
accused of providing illegal tax refunds. Additionally, on April 18, 
President Morales requested CICIG's extension through 2019 and 
reaffirmed his promise to institute a ``zero tolerance for 
corruption''.
    Honduras has shown significant progress and commitment to fighting 
corruption in the prosecution and investigation of public officials. On 
March 3, three senior and influential judges in the Honduran judiciary 
resigned following an investigation by the Honduran Supreme Court. 
Additionally, from January through March, the Honduran Attorney 
General's office detained, indicted, and successfully sentenced five 
mayors for charges of money laundering, illicit association, contract 
killing, drug trafficking, misuse of office, and illicit enrichment. 
The Honduran government also recently affirmed its commitment to 
support the new OAS Mission Against Corruption and Impunity in Honduras 
(MACCIH).
    El Salvador's Attorney General (AG) has demonstrated determination 
to combat corruption and target prominent Salvadoran figures with 
current or past government ties who are involved in it. In March and 
April, the AG filed civil charges against two former Presidents, 
Mauricio Funes (FMLN, 2009-14) and Antonio Saca (ARENA, 2004-09), for 
illicit enrichment while in office. The AG's investigation into the 
former Presidents continues, with criminal charges still a possibility.


    Question 9.  How have the Honduran government's efforts to 
apprehend and extradite top drug-traffickers affected the dynamics of 
the criminal underworld in Honduras and Central America?

    Answer. After the 2014 extradition of Carlos Arnoldo Lobo, Honduran 
drug traffickers have become increasingly concerned with the 
possibility of apprehension and extradition. Honduras has extradited a 
total of 11 people, most of whom were the leaders of Honduras' most 
notorious drug trafficking organizations. Those actions, together with 
repeated operations seizing hundreds of millions of dollars in assets 
from drug traffickers, sent a shockwave through the criminal 
organizations, which had previously found Honduras to be a completely 
permissive environment. U.S assistance to Honduras has demonstrated a 
significant impact on illegal drug flows into and through Honduras. 
Transnational narcotraffickers have become more reluctant to work with 
Honduran drug traffickers due to an uptick in Honduran government's 
efforts to efficiently and effectively combat drug trafficking. 
Honduran government efforts to prosecute financial crimes, including 
the high-profile Rosenthal case, and to apprehend narcotics traffickers 
are sending a strong message throughout Honduras that all people are 
subject to the law.


    Question 10.  How has Operation Martillo affected illicit 
trafficking patterns in the hemisphere?

    Answer. Operation Martillo continues throughout the western 
Caribbean and eastern Pacific regions and has been successful in 
involving all allied and partner nations in a unified hemispheric 
counter illicit trafficking operation. Illicit maritime trafficking 
patterns have not changed significantly, however allied and partner 
nations have contributed to 50 percent of all Joint Interagency Task 
Force South's (JIATF-S) seizures and disruptions. It has also raised 
awareness of maritime drug trafficking activities to our partner 
nations in Central America.


    Question 11.  What is your reaction to recent press reports that 
high level police commanders in Honduras colluded with drug-traffickers 
to assassinate top Honduran anti-drug officials and subsequent police 
commanders and security ministers covered up those crimes?

    Answer. We take allegations of human rights violations very 
seriously. We are in regular contact with NGOs, Honduran civil society, 
human rights officials, concerned citizens, security forces, and 
government officials to request and receive information about the human 
rights situation in Honduras. When we receive credible information 
about human rights violations by members of the security forces we take 
immediate action, which includes halting provision of assistance and 
encouraging the relevant foreign government to thoroughly investigate 
and bring any perpetrators to justice. We report publically on human 
rights cases involving security forces in the Department's annual Human 
Rights Report.
    Following media revelations of police commanders for alleged 
involvement in the murders of Julian Aristides Gonzalez and Alfredo 
Landaverde, the Honduran government established a Special Commission 
for National Police's Purge and Transformation. The civil society-led 
commission focuses on administratively removing corrupt officers and 
passing relevant information to the Public Ministry for possible 
prosecutions. As of late June, the Commission reviewed a total of 272 
officers from the Honduran National Police (HNP), including 90 for 
restructuring; five (5) accepted early retirement; 150 ratified and 
continue with the HNP; 11 still under review; and 16 referred to the 
Public Ministry for criminal investigation. The Attorney General formed 
a special unit, supported by INL, to investigate police officials that 
have been referred for possible criminal prosecution. INL also provides 
administrative support to the commission. In addition, as a standard 
part of the Commission's review process, it provided the Embassy the 
names of police officers under review, and the Embassy has informed the 
Commission when derogatory information exists in its databases. 
Additionally, INL funds the Association for a More Just Society, which 
has seconded commissioners, administrative, and technical staff to the 
Commission. INL also is providing the Commission with a safe house and 
armored vehicles.


    Question 12.  Given the high level of criminal infiltration of 
Central American security forces, how do you ensure that U.S. 
assistance does not end up strengthening transnational criminal 
organizations?

    Answer. The State Department conducts rigorous vetting of military 
and police units that seek U.S. assistance, in accordance with U.S. law 
and policy, and we do not provide assistance to a unit when we have 
credible information that it has committed a gross violation of human 
rights. As part of our review, we receive information from individuals 
and organizations outside the U.S. government, as well as from other 
U.S. Government sources, about gross violations of human rights by 
security forces. Additionally, we ensure such information is evaluated 
and preserved for purposes of vetting proposed security assistance 
recipients.


    Question 13.  The Tri-Border Area (TBA) where Argentina, Paraguay, 
and Brazil intersect is an illicit hotbed plagued by criminal money 
laundering, trade in contraband, extortion and terrorist financing.
    To what degree are the three governments of the region making these 
challenges a priority?

    Answer. The governments of Argentina, Paraguay, and Brazil would 
all benefit from strengthening their efforts to mitigate the impacts of 
criminal money laundering, trade in contraband, extortion, and 
terrorist financing in the Tri-Border Area. Brazil does not maintain 
comprehensive statistics on money laundering prosecutions and 
convictions. This lack of data makes it difficult to evaluate the 
effectiveness of Brazil's anti-money laundering/counter-financing of 
terrorism (AML/CFT) regime. In Argentina, while the government has 
established the legal authorities and structures necessary for an AML 
regime by institutionalizing suspicious transaction reporting and 
allowing information to flow more freely between branches of 
government, Argentina lacks sufficient enforcement, a deficit the Macri 
administration has acknowledged and is working to remedy. Although the 
Government of Paraguay is making progress in improving its AML/CFT 
regime, concerns remain regarding the country's ability to identify, 
investigate, and prosecute money laundering and related crimes 
effectively. The banking sector is sometimes unwilling to engage in 
combatting AML/CFT, and the lack of data on prosecutions and 
convictions makes tracking government effectiveness difficult.


    Question 14.  How would you describe cross-border cooperation 
between law enforcement agencies?

    Answer. Paraguay, Argentina, and Brazil collaborate on some border 
protection initiatives, regional exchanges, and discussions on 
counterterrorism and law enforcement. In 2015, the Paraguayan and 
Brazilian Federal/Civil Police held working-level meetings to increase 
cooperation. Some officers cited investigative successes through the 
unprecedented sharing of leads and criminal intelligence between the 
two services. In general, however, cross-border cooperation between 
Argentine, Paraguayan, and Brazilian law enforcement agencies could be 
better. For example, customs operations at airports and overland entry 
points provide little control of cross-border cash movements. Customs 
officials are often absent from major border crossings, and required 
customs declaration reports are seldom checked. Institutionalized 
corruption and a lack of accountability among law enforcement agents 
stationed in the Tri-Border Area contribute to the porous nature of 
those borders.


    Question 15.  How successful are criminals in exploiting regulatory 
gaps either between governments or agencies within a single government?

    Answer. Criminals are successful in exploiting regulatory gaps both 
between governments and agencies and within a single government. 
Argentine individuals and entities, for example, hold billions of U.S. 
dollars outside the formal financial system, both domestically and 
offshore, much of it legitimately earned, but not taxed. Since 1999, 
Argentina has successfully prosecuted only seven cases of money 
laundering, an issue the Macri administration hopes to address. 
Systematic deficiencies in Argentina's criminal justice system, 
including widespread delays in the judicial process and a lack of 
judicial independence, contribute to this low number. In Paraguay, the 
non-bank financial sector operates in a weak regulatory environment 
with limited supervision. The autonomous government institution 
responsible for regulating and supervising credit unions, the National 
Institute of Cooperatives, lacks the capacity to enforce compliance. 
Credit unions respond to ad hoc requests from the central bank for 
money laundering indicators, but do not fall under the central bank's 
formal oversight. Currency exchange houses are another critical non-
bank sector where enforcement of compliance requirements remains 
limited. In Brazil, the anti-corruption investigation known as 
``Operation Carwash'' (Lava Jato) has uncovered a complicated web of 
corruption, money laundering, and tax evasion, leading to the arrests 
of money launderers, directors at parastatal energy company Petrobras, 
and major construction company executives. Many Brazilian politicians 
are also under investigation and the operation continues to uncover 
what many believe is the biggest corruption scandal in Brazilian 
history.


    Question 16.  To what extent do criminals cooperate with terrorists 
and which illicit activities do criminals market to terrorists?

    Answer. The Tri-Border Area of Argentina, Brazil, and Paraguay 
continues to serve as a suspected funding source for terrorist groups, 
as the minimal police and military presence along these borders allow 
for a largely unregulated flow of people, contraband, and money. 
Efforts to provide more effective law enforcement and border security 
are hampered by a lack of interagency cooperation and information 
sharing, as well as pervasive corruption within security, border 
control, and judicial institutions. During 2014, the last period for 
which data is available, Argentina's Financial Intelligence Unit (UIF) 
identified seven possible instances of terrorism financing. These cases 
involve the capture of 11 terrorist fugitives, all from the last 
military dictatorship, and eight resolutions to freeze assets. At the 
end of 2015, the federal prosecutor in charge of economic crimes 
identified a new potential terrorism-financing case regarding a Syrian 
national involved in a number of suspicious transactions in the Tri-
Border Area. While the Government of Argentina has established the 
legal authorities and structures necessary to identify and pursue 
terrorism financing, results in the form of targets identified, assets 
seized, and cases prosecuted have been minimal. In December 2015, the 
Macri administration appointed a new head of the UIF and considered 
proposals to create a special counsel reporting directly to the 
government to combat money laundering and terrorism financing, 
establish an interagency anti-money laundering/counterterrorism 
financing task force, and develop a new national risk-based strategy 
founded on a revised national risk analysis. Such measures, if 
implemented effectively, could help the country move closer to 
international standards and yield tangible anti-money laundering/
counterterrorism financing results.
    In October 2015, President Rousseff signed Law #13.170, which 
provides procedures for freezing assets relating to UNSCRs and for 
information provided bilaterally, closing a longstanding gap in 
Brazil's ability to confront terrorist financing. In March 2016, 
President Rousseff signed Law #13.260, which criminalized terrorism and 
terrorist financing, closing the legal gap on Brazil's ability to 
investigate and prosecute terrorists. This law has not yet been tested, 
but was a major advance for Brazilian prosecutors, investigators, and 
judges seeking to investigate terrorism-related crimes. Through 
Brazil's Council for Financial Activities Control (the COAF), which is 
a largely independent entity within the Finance Ministry, Brazil has 
implemented the UN Security Council 1267/1989/2253 ISIL (Da'esh) and 
al-Qa'ida sanctions regime, but it has not reported any assets, 
accounts, or property in the names of persons or entities on the UN 
sanctions list. The Government of Brazil has generally responded to 
U.S. efforts to identify and block terrorist-related funds.
    Paraguay has both counterterrorism financing legislation and the 
ability to freeze without delay and confiscate terrorist assets, yet 
there were no terrorism financing convictions or actions to freeze in 
2015 or 2016.


    Question 17.  Colombia's largest criminal organizations, other than 
its guerrilla groups of leftist insurgents, are known as Bacrim from 
the Spanish term for criminal bands. The Bacrim are considered the 
largest threat to the civilian population, especially as the insurgent 
groups have entered into peace talks with the Colombian government. The 
largest group, Los Urabeos, is estimated to have about 3,000 members 
and is violent, controls territory in certain cities and in some rural 
areas, and has recently pushed to be recognized as a combatant in 
Colombia's internal conflict.
    What is the likelihood that the government may give the Urabeos 
this status?

    Answer. The Colombian government has stated unequivocally and 
repeatedly it considers the Bacrim to be non-political, criminal groups 
that must submit to Colombian justice or face arrest, prosecution, and 
imprisonment. The Colombian government has said it does not consider 
the Urabeos (which the Colombian government now refers to as ``the Gulf 
Clan'') combatants in Colombia's internal armed conflict.


    Question 18.  How would it affect law enforcement tools such as 
bringing criminal cases against the Urabeos in the nation's courts or 
the recent decision that the Colombian military could strike Bacrim 
strongholds?

    Answer. The Colombian government has stated it does not intend to 
consider the Gulf Clan or any other Bacrim as combatants in Colombia's 
internal armed conflict.


    Question 19.  What lessons learned from Colombia's experience of 
successfully reducing heroin trafficking and cultivation of opium poppy 
might be valuable for other countries in the region?

    Answer. Capable, committed local partners are critical. U.S. 
assistance in the form of a vetted unit carrying out intelligence-led 
investigations played a tremendous role in Colombia's experience of 
successfully reducing heroin trafficking and the cultivation of opium 
poppy.
    Beginning in the late 1990s, the Colombian National Police (CNP) 
and the U.S. Drug Enforcement Administration partnered in an effort to 
investigate heroin cases and disrupt the Colombian heroin trade. In 
2002, Congress formalized this through the appropriation of funds to 
stand up a CNP Sensitive Investigative Unit (SIU), commonly referred to 
as the Heroin Task Force (SIU-HTF). Since 2002, the Heroin Task Force 
has conducted more than 150 investigations, resulting in nearly 2,000 
arrests in Colombia. More than 200 of these were arrested for 
extradition to the United States.
    Colombia remains active in eradicating poppy and interdicting 
heroin shipments. In 2015, Colombian authorities eradicated 624 
hectares of poppy and seized 393 kilograms of heroin; in 2014, these 
figures were 813 hectares and 349 kilograms, respectively. As a result 
of these efforts, the U.S. government intelligence community 
consistently estimates Colombian-sourced heroin in the United States to 
be, as a percentage of the total supply on our streets, in the low 
single digits; the vast majority of heroin in the United States is 
traced to Mexico.


    Question 20.  Last year, Colombia discontinued its aerial 
eradication program following a March 2015 report by the International 
Agency for Research on Cancer, an arm of the World Health Organization, 
which identified glyphosate, the key chemical ingredient used in aerial 
eradication programs on coca bush crops in Colombia, as ``possibly 
carcinogenic to humans.'' Aerial eradication had long been a 
controversial, but central component of U.S. counternarcotics support 
to Colombia. How has ending the aerial eradication program affected 
coca cultivation and cocaine production?

    Answer. Increased Colombian coca cultivation can be attributed to a 
number of factors, many of which occurred prior to the end of aerial 
eradication. Coca growers implemented ``counter'' eradication 
techniques, including migrating their plantings to areas where spraying 
was not permitted by law or policy and cultivating smaller, better 
concealed fields to avoid their detection by law enforcement. 
Colombia's decision, which was based on various factors to include a 
Colombian court ruling, to end the aerial coca eradication program 
nationwide in October 2015 is a factor that has contributed to the 
increase in coca cultivation. We are working closely with our Colombian 
partners to implement their new counternarcotics strategy, which 
prioritizes robust law enforcement activity against criminal drug 
trafficking organizations, enhanced interdiction, manual eradication, 
and anti-money laundering operations. In 2015, Colombia seized a record 
295 metric tons of cocaine along with other illegal drugs and destroyed 
a record 3,896 drug laboratories.


    Question 21.  What will the International Narcotics Control and Law 
Enforcement funds, previously allocated for aerial eradication in 
Colombia, be used for now?

    Answer. The remaining $86.05 million in aerial eradication funds 
will be reallocated to other INL Colombia counternarcotics programs, to 
include aviation support projects, manual eradication, rural police 
establishment, environmental monitoring, and land, riverine, and 
maritime interdiction.


    Question 22.  What countries in the Caribbean are facing the 
biggest threats from drug trafficking and related crime?

    Answer. Drug trafficking and transnational criminal organizations 
operating in and around the Caribbean exploit the region as a 
transshipment point for illicit drugs shipped to the United States, 
with cocaine the principal drug threat.
    Cocaine movement from the northern coast of South America into the 
Eastern and Central Caribbean increased in 2015 to the highest 
documented levels since 2007, according to U.S. Government estimates. 
The Dominican Republic (DR), Haiti, The Bahamas, and Jamaica are on the 
fiscal year 2016 Majors List of Drug Transit and Producing countries 
due to the transshipment of drugs through these countries. Roughly two-
thirds of the documented cocaine that moved through the region in 2015 
was destined for the DR, mostly for forward transport to Europe and the 
United States, much of it via Puerto Rico.
    We remain concerned about homicide and gang-related violence in the 
region which, combined with increased drug trafficking, create 
significant challenges for security forces. Our investments to build 
partner nations' law enforcement, counternarcotics, and justice sector 
capacity under the Caribbean Basin Security Initiative (CBSI) are 
assisting security forces in addressing these criminal threats.


    Question 23.  How would you assess the impact of U.S. efforts aimed 
at combatting drug trafficking through the Caribbean Basin Security 
Initiative (CBSI) and how might those efforts be improved?

    Answer. Under the Caribbean Basin Security Initiative (CBSI), the 
United States partners with the Caribbean Community (CARICOM) and the 
Dominican Republic to enhance the rule of law by substantially reducing 
illicit trafficking, increasing public safety and security, and 
addressing the underlying social and economic root causes of crime. 
Between fiscal year (FY) 2010 and FY 2016, the U.S. Government invested 
over $437 million in support of CBSI.
    Through CBSI, the U.S. Government seeks to combat drug trafficking 
by supporting equipment and training for law enforcement and military 
forces with a counternarcotics mandate. Efforts promote information 
sharing among the region and with international partners, assist in the 
development of partner nations' interdiction capabilities on land and 
sea, and enhance maritime readiness.
    The Department of State's Bureau of International Narcotics and Law 
Enforcement Affairs (INL) provides training and equipment to 
specialized law enforcement units focusing on counternarcotics, border 
security, and maritime engagement. INL also works with the U.S. Coast 
Guard to support maritime interdiction exercises and to promote 
regional cooperation. INL efforts help partner nations strengthen port 
security through interagency task forces. These capacity-building 
activities are yielding results, contributing to a 152 percent increase 
in cocaine seizures in CBSI partner nations between 2014 and 2015.
    We continue to encourage partner countries to cooperate more 
closely to address the shared drug trafficking threat across their vast 
maritime borders and surrounding waters. Improved regional information-
sharing will help the region yield further successes in addressing drug 
trafficking.

                                  <all>
</pre></body></html>
